<html>
<title> - OVERSIGHT OF USDA'S USE OF CENSUS OF AGRICULTURE AUTHORITY TO ACQUIRE FARMERS' PERSONAL FINANCIAL INFORMATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]












 OVERSIGHT OF USDA'S USE OF CENSUS OF AGRICULTURE AUTHORITY TO ACQUIRE
                FARMERS' PERSONAL FINANCIAL INFORMATION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               BIOTECHNOLOGY, HORTICULTURE, AND RESEARCH

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 9, 2015

                               __________

                           Serial No. 114-37


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov




                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-972 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


















                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                 ______

       Subcommittee on Biotechnology, Horticulture, and Research

                    RODNEY DAVIS, Illinois, Chairman

GLENN THOMPSON, Pennsylvania         SUZAN K. DelBENE, Washington, 
AUSTIN SCOTT, Georgia                Ranking Minority Member
CHRISTOPHER P. GIBSON, New York      MARCIA L. FUDGE, Ohio
JEFF DENHAM, California              JAMES P. McGOVERN, Massachusetts
TED S. YOHO, Florida                 ANN M. KUSTER, New Hampshire
JOHN R. MOOLENAAR, Michigan          GWEN GRAHAM, Florida
DAN NEWHOUSE, Washington

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Davis, Hon. Rodney, a Representative in Congress from Illinois, 
  opening statement..............................................     1
    Prepared statement...........................................     3
    Submitted report.............................................    37
    Submitted form...............................................    97
DelBene, Hon. Suzan K., a Representative in Congress from 
  Washington, opening statement..................................     9
    Submitted memorandum.........................................   121
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................    23
    Submitted article............................................   122

                                Witness

Reilly, Joseph T., Administrator, National Agricultural 
  Statistics Service, U.S. Department of Agriculture, Washington, 
  D.C............................................................    10
    Prepared statement...........................................    12

 
 OVERSIGHT OF USDA'S USE OF CENSUS OF AGRICULTURE AUTHORITY TO ACQUIRE
                FARMERS' PERSONAL FINANCIAL INFORMATION

                              ----------                              


                      WEDNESDAY, DECEMBER 9, 2015

                  House of Representatives,
 Subcommittee on Biotechnology, Horticulture, and Research,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 1302 of the Longworth House Office Building, Hon. Rodney 
Davis [Chairman of the Subcommittee] presiding.
    Members present: Representatives Davis, Thompson, Scott, 
Gibson, Yoho, Newhouse, DelBene, Kuster, Graham, and Peterson 
(ex officio).
    Staff present: Ashley Callen, Haley Graves, John Goldberg, 
Mary Nowak, Mollie Wilken, Stephanie Addison, John Konya, Anne 
Simmons, Keith Jones, Liz Friedlander, Matthew MacKenzie, Mike 
Stranz, Nicole Scott, and Carly Reedholm.

  OPENING STATEMENT OF HON. RODNEY DAVIS, A REPRESENTATIVE IN 
                     CONGRESS FROM ILLINOIS

    The Chairman. This hearing of the Subcommittee on 
Biotechnology, Horticulture, and Research, regarding oversight 
of USDA's use of Census of Agriculture authority to acquire 
farmers' personal financial information, will come to order.
    I will tell you, this is my first time in this room, and 
the technological disadvantages we have here are interesting. 
We actually have a toggle switch on the microphone. I haven't 
seen one of those here, so welcome to history.
    I would now like to offer up a welcome to our witness, Mr. 
Reilly, from the USDA. Thank you for being here.
    I will go ahead and commence with my opening statement, and 
then let the Ranking Member commence with her statement. I will 
let the Members know that we are expecting votes during this 
hearing. Hopefully, they will not last long and we can 
immediately come back here and complete the hearing in a very 
timely manner.
    So with that, I want to begin by saying thank you again, 
Mr. Reilly. And today the Subcommittee will begin a public 
dialogue with the USDA's National Agricultural Statistics 
Service regarding concerns raised by producers pertaining to a 
perceived abuse of discretion in conducting the Census of 
Agriculture.
    The Census of Agriculture is conducted every 5 years by 
NASS, the most recent Census being taken in 2012. Data 
collected from the Census of Agriculture is incredibly 
important as it provides the only source of consistent, county-
level statistics on agriculture operations throughout the 
United States. This data is used to prepare estimates of farm 
income and production costs, calculate research and extension 
formula allocations to land-grant universities--like the one I 
serve, the University of Illinois--evaluate agricultural 
programs and policies, to administer farm programs, and plan 
for operations during disease or pest emergencies. The Farm 
Credit Administration also uses the data to evaluate farmer 
loan programs. It is also intended to assist Congress in 
considering legislation, most notably the farm bill, and in 
overseeing farm programs.
    Implementation of the 2014 Farm Bill is particularly data-
driven. It cannot be overstated how important it is that 
farmers have confidence in NASS' process and participate in the 
Census.
    States and local governments, as well as farm 
organizations, use the data collected from the Census of 
Agriculture to analyze and develop policies on land use, water 
use and irrigation, rural development, and farmland assessment. 
Rural electric companies use such statistics, they do this all 
the time, to forecast future energy needs.
    Prior to 1997, the Census of Agriculture was taken by the 
Census Bureau, an agency within the Department of Commerce. 
Following proposals by the Census Bureau to redefine farms 
solely in order to reduce its own workload and costs involved, 
the Agriculture Committee determined that it would be in the 
best interests of all parties to transfer the authority to 
conduct the Census from the Secretary of Commerce to the 
Secretary of Agriculture. Legislation was subsequently enacted 
to transfer the Census of Agriculture to the USDA.
    When we reported this legislation, Congress was cognizant 
of the amount of time taken by producers to respond to the 
Census questionnaire. In the report filed by this Committee, we 
specifically highlighted these concerns and instructed USDA to 
ensure that the Census questionnaire would be concise, easily 
readable and understandable, and relevant to today's 
agricultural operations.
    In fact, Congress specifically instructed the Secretary of 
Agriculture to undertake a review of all questions currently 
asked as a part of the Census of Agriculture to ensure their 
relevancy.
    In January of 2015, the Committee, both Majority and 
Minority, were contacted by farmers and ranchers concerned that 
the NASS improperly used the Census of Agriculture authority to 
conduct a survey entitled Tenure, Ownership, and Transition of 
Agricultural Land, or otherwise known as TOTAL. By invoking the 
Census authority, NASS rendered the TOTAL survey compulsory.
    The farmers and ranchers in touch with the House 
Agriculture Committee were confounded by the duplicative, 
intrusive, and over-broad nature of TOTAL. The TOTAL survey 
inquired about all aspects of an operator's personal financial 
portfolio, as well as all aspects of farm-related income and 
expenses. We will discuss the specific questions on the TOTAL 
survey during our question and answer time, but I would like to 
welcome Mr. Joe Reilly, the Administrator of the National 
Agricultural Statistics Service, to help the Committee 
understand how decisions were made to develop and mandate 
intrusive survey questions, questions that, on their face, have 
little to do with agricultural production. I think it is 
accurate to point out that these types of questions were 
certainly never intended by Congress to be included in a 
mandatory Census of Agriculture. In fact, the instructions 
Congress gave to the USDA at the time that the legislation was 
enacted point out that Congress was specifically concerned 
about this type of abuse of discretion.
    Mr. Reilly, thank you for being here today. It is our hope 
that you can shed some light on the decision-making process.
    [The prepared statement of Mr. Davis follows:]

 Prepared Statement of Hon. Rodney Davis, a Representative in Congress 
                             from Illinois
    Today the Subcommittee will begin a public dialogue with USDA's 
National Agricultural Statistics Service (NASS) regarding concerns 
raised by producers pertaining to a perceived abuse of discretion in 
conducting the Census of Agriculture.
    The Census of Agriculture is conducted every 5 years by NASS, the 
most recent Census being taken in 2012. Data collected from the Census 
of Agriculture is incredibly important as it provides the only source 
of consistent, county-level statistics on agriculture operations 
throughout the United States. This data is used to prepare estimates of 
farm income and production costs, calculate research and extension 
formula allocations to land-grant universities, evaluate agricultural 
programs and policies, to administer farm programs, and plan for 
operations during disease or pest emergencies. The Farm Credit 
Administration also uses the data to evaluate farmer loan programs. It 
is also intended to assist Congress in considering legislation, most 
notably the farm bill, and in overseeing farm programs.
    Implementation of the 2014 Farm Bill is particularly data-driven. 
It cannot be overstated how important it is that farmers have 
confidence in NASS' process and participate in the Census.
    States and local governments, as well as farm organizations use the 
data collected from the Census of Agriculture to analyze and develop 
policies on land use, water use and irrigation, rural development, and 
farmland assessment. Rural electric companies use such statistics to 
forecast future energy needs.
    Prior to 1997, the Census of Agriculture was taken by the Census 
Bureau, an agency within the Department of Commerce. Following 
proposals by the Census Bureau to redefine farms solely in order to 
reduce its own workload and costs involved, the Agriculture Committee 
determined that it would be in the best interests of all parties to 
transfer the authority to conduct the Census from the Secretary of 
Commerce to the Secretary of Agriculture. Legislation was subsequently 
enacted to transfer the Census of Agriculture to USDA.
    When we reported this legislation, Congress was cognizant of the 
amount of time taken by producers to respond to the Census 
questionnaire. In the report filed by this Committee, we specifically 
highlighted these concerns and instructed USDA to ensure that the 
Census questionnaire would be concise, easily readable and 
understandable, and relevant to today's agricultural operations.
    In fact, Congress specifically instructed the Secretary of 
Agriculture to ``undertake a review of all questions currently asked as 
a part of the Census of Agriculture to ensure their relevancy.''
    In January 2015, the Committee, both Majority and Minority, were 
contacted by farmers and ranchers concerned that the NASS improperly 
used the Census of Agriculture authority to conduct a survey entitled 
Tenure, Ownership, and Transition of Agricultural Land (TOTAL). By 
invoking the Census authority, NASS rendered the TOTAL survey 
compulsory.
    The farmers and ranchers in touch with the House Agriculture 
Committee were confounded by the duplicative, intrusive, and over-broad 
nature of TOTAL. The TOTAL survey inquired about all aspects of an 
operator's personal financial portfolio as well as all aspects of farm 
related income and expenses. We will discuss the specific questions on 
the TOTAL survey during our question and answer time, but I would like 
to mention that NASS asked farmers how much they spend on health care 
and dental visits. You may think those are relevant areas to probe, but 
then we discovered NASS asked farmers how much they spend on vacations 
and going to the movies, if that is one's hobby. If a farmer or rancher 
ignored the survey, that producer could face a monetary penalty.
    The Committee began oversight in February 2015 by requesting 
briefings by NASS officials and has since reviewed approximately 49,000 
documents produced by USDA. Over the course of the Committee's 
oversight, it became clear that certain anomalies occurred during the 
planning and approval phase of the survey. The e-mails produced to the 
Committee show USDA leadership involvement in the process, which raises 
questions about the motivations for the compulsory nature of the TOTAL 
survey. The motivation for conducting TOTAL as a mandatory survey is 
unclear.
    Today we have invited Mr. Joe Reilly, the Administrator of the 
National Agricultural Statistics Service to help the Committee 
understand how decisions were made to develop and mandate intrusive 
survey questions, questions that on their face have little to do with 
agricultural production. I think it is accurate to point out that these 
types of questions were certainly never intended by Congress to be 
included in a mandatory Census of Agriculture. In fact, the 
instructions Congress gave to USDA at the time the legislation was 
enacted point out that Congress was specifically concerned about this 
type of abuse of discretion.
    Mr. Reilly, thank you for being here today. It is our hope that you 
can shed some light on the decision-making process.
    I now yield to the Ranking Member, Ms. DelBene for her opening 
comments.
                        PowerPoint Presentation
                        
                        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                        
                        
 

    The Chairman. And I now yield to the Ranking Member, Ms. 
DelBene, for her opening comments.

OPENING STATEMENT OF HON. SUZAN K. DelBENE, A REPRESENTATIVE IN 
                    CONGRESS FROM WASHINGTON

    Ms. DelBene. Thank you, Mr. Chairman, for holding this 
hearing today. And thank you, Mr. Reilly, for being with us.
    The thoughtful acquisition of data is essential to an 
informed decision-making process, both in the public and in the 
private sectors. What data to collect, how and when to collect 
it, and how to protect its appropriate use are all important 
questions for any organization engaged in data collection.
    Big data is a buzzword in agriculture these days. It is 
kind of a buzzword everywhere, and we had a hearing on it 
recently here in the Agriculture Committee. And this afternoon, 
we will hear from the National Agricultural Statistics Service, 
or NASS. NASS has been involved in the collection of big data 
long before today's innovation age, including things like The 
Internet of Things.
    In light of this new and exciting time, it is critical to 
better understand not just how the private-sector collects data 
through the newest production hardware and software, but how 
agencies such as NASS and the Economic Research Service collect 
their data. Even more important, we need to understand and 
ensure an individual's data is protected with the utmost care.
    The data that flows from the various NASS and ERS products 
are critical to virtually every aspect of sound decision-making 
within USDA and U.S. agriculture at large. Why? Because in some 
form or another, the data NASS collects informs decisions 
ranging from EPA pesticide registrations and USDA commodity 
program participation, to improving risk management tools for 
organic producers. I even use data collected from the Census of 
Agriculture when I introduced a resolution emphasizing the 
importance of specialty crops.
    Federal agencies have a responsibility to fully and 
transparently explain the relevancy for each of their data 
sets, and to engage in producer outreach to reassure a 
sometimes skeptical public that data is essential to a 
producer's access to farm programs, and being appropriately and 
safely collected. Furthermore, we should work together to 
ensure those collecting data hear from a range of opinions when 
constructing their surveys, and that they are not duplicating 
what we are asking individuals to complete.
    Realistically, if these data collection surveys are to 
adequately inform both public- and private-sector decision-
makers, they may need to ask about some sensitive personal 
information; however, it is essential that this type of data be 
handled with the utmost care and concern.
    I look forward to hearing from our witness today, and hope 
everyone will leave this hearing with a better understanding of 
this topic at hand.
    And with that, I yield back.
    The Chairman. Thank you, Ms. DelBene.
    And with that, Mr. Reilly, the floor is yours for your 
verbal statement.

         STATEMENT OF JOSEPH T. REILLY, ADMINISTRATOR,
         NATIONAL AGRICULTURAL STATISTICS SERVICE, U.S.
          DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Mr. Reilly. Chairman Davis, Ranking Member DelBene, and all 
the Members of the Committee, I appreciate the opportunity to 
present the National Agricultural Statistics Service important 
role in agriculture.
    NASS administers the U.S. Agricultural Estimates program, 
which began in the Department of Agriculture back in 1863, and 
NASS also has the responsibility for conducting the U.S. Census 
of Agriculture every 5 years. And this was first done in the 
Department of Agriculture in 1997.
    Both the Agricultural Estimates program and the Census 
program align with the basic mission of NASS to provide timely, 
accurate, and useful statistics in the service of U.S. 
agriculture. NASS prepares estimates for numerous crops and 
livestock items, and we issue 400 separate reports annually, of 
which over 100 of them are Principle Economic Indicators of the 
United States. NASS provides technical assistance and training 
to other countries in support of the U.N. Global Strategy for 
Agricultural and Rural Statistics in the U.S. Feed the Future 
Program. NASS also conducts over 150 special surveys on a cost 
reimbursable basis for other agencies, State Departments of 
Agriculture, and universities and other agricultural 
organizations.
    The work that NASS does is critically important. It 
provides stability to our commodity markets, it supports our 
crop insurance program, it supports our disaster assistance 
program, and various farm bill programs. Inputs for farmer 
decisions and data to inform policy debates, and overall 
national security that comes from having a stable, reliable, 
nutritious and affordable U.S. food supply, is part of our core 
mission.
    I understand that the Committee has some concerns over this 
recent survey that we conducted, the Tenure, Ownership, and 
Transition of Agricultural Land Survey, or TOTAL, and that we 
conducted in partnership with the Economic Research Service, 
and I am going to be happy to address all of those concerns 
today.
    Precursors of this survey began in 1960, and the most 
recent, prior to this year, was conducted by the Department of 
Agriculture, called the Agricultural, Economic, and Land 
Ownership Survey in 1999, and these were conducted as special 
surveys under the Census of Agriculture authority. And myself, 
having worked with the government for 40 years, I was with the 
Agriculture Program back when it was at the Census Bureau 
during the transition, I led the Agriculture Program during the 
transition, and have been with NASS since 1997, so I have a 
strong background in this area.
    NASS acquired the authority for the Census of Agriculture 
in 1997, and prior to that, as I have stated earlier, the 
Census of Agriculture and all of the special studies, including 
AELOS, were conducted by the Bureau of the Census pursuant to 
Title 13 of the United States Code, to require responses to the 
Census and its follow-on programs.
    In 1997, as you know, Congress adopted the Census of 
Agriculture Act, which required and transferred the authority 
to conduct the Census of Agriculture from the Department of 
Commerce to the Department of Agriculture. In addition, the Act 
authorizes the USDA, in connection with the Census, to conduct 
any survey or other information collection, and employ any 
sampling or other statistical method that the Secretary 
determines, or that USDA determines, is appropriate.
    In summary, it is this Census of Agriculture Act that 
provides NASS the authority not only to conduct the Census and 
associated special studies, and where we invoke the mandatory 
reporting authority.
    Publication of information on land ownership began as far 
back as 1880, with the classification of farm tenure. Land 
ownership has been an important tool to gauge who owns the 
land, what is going to happen to the transition of land, and 
what are the finances surrounding the land, and how it affects 
the availability of the land going to farmers, especially new 
and beginning farmers. The Secretary's Advisory Committee on 
Agriculture Statistics provided advice to us in two meetings 
conducted in 2012 and 2013, which stated that as one of the top 
priorities for the agriculture community: the importance of 
this land ownership and tenure data.
    Also in partnership with ERS, NASS conducts an annual farm 
finance survey, which is called the Agriculture Resource 
Management Survey, or ARMS. The sampling population for our 
TOTAL survey and our ARMS survey were determined to have a very 
high level of overlap between the respondent farms, and, 
therefore, NASS and ERS decided early on in our planning 
activities to integrate the two surveys, which was a hope to 
reduce overall respondent burden, to save the taxpayers' 
resources, and would improve the quality of the data provided 
for this critical topic.
    Subsequently, NASS requested funding in our Fiscal Year 
2015 President's budget to conduct a mandatory survey under the 
Census of Agriculture authority on land ownership and farm 
finance. And if you read the details of our explanatory notes 
in our 2015 budget submission, it was clear that we did 
describe the process of how we were going to integrate this 
with the Agricultural Resource Management Study.
    In April of 2014, the Office of Management and Budget 
approval process required us to issue a Federal Register 
notice, notifying the public and everyone else of our intention 
to conduct the TOTAL survey, and to incorporate questions from 
the ARM survey. And it was noted in there, and in the 
subsequent Federal Register notice issued during the summer of 
2014, with more specific details on our intent, including a 
copy of the final questionnaire which notified the public and 
everyone else of the mandatory reporting status. NASS in that 
process received one public comment from the Bureau of Economic 
Analysis heavily supporting and identifying the important use 
of this land ownership information.
    NASS conducted the first mailing of the TOTAL questionnaire 
in December 2014, and subsequent mailings occurred through the 
spring of 2015. Once the data collection began, we did our 
editing analysis, and issued the results released on August 31 
of this year. This publication provided hundreds of important 
estimates, covering land ownership arrangements, the economics 
of land ownership, demographic characteristics, land unit uses, 
and a look ahead at potential ownership transfer, and this data 
has been highly valued since its release.
    NASS clearly understands the sensitivity of some of the 
questions that we pose to farmers and land owners. Questions 
covering the cost of health insurance, medical expenses and 
other things, appear to be of particular concern. In order to 
gauge the well-being of farm families, it is important to have 
a clear understanding not only of the farm operating expenses, 
but also of the farm household expenses. Similar questions have 
historically been asked in previous land ownership surveys and 
in the ARM surveys, and were both integrated in the TOTAL 
survey. Household expenses can be a significant factor in 
determining whether or not a farmer can pursue their full 
profession in agriculture, or are they necessitated to seek and 
obtain off-farm work and off-farm benefits. For all the 
information that NASS collects, we consistently offer a pledge 
of confidentiality, and we go to extreme measures to ensure 
that that occurs. In fact, I just left our crop report issuance 
which went out at noon today, and I invite all of you to see 
the security that is in place when we put out our crop report 
every month.
    By integrating the ARMS and TOTAL survey, and using 
mandatory authority, this reduced overall respondent burden and 
data collection costs, and greatly increased the quality and 
reliability of the data. NASS estimates that by having this 
integrated approach, we saved over 53,000 burden hours on our 
American farmers and operators, and saved not only from our 
appropriations but the taxpayers about $3 million in the 
implementation of the survey. While this is not a lot of money 
in the total Federal budget, to us in our data collection 
activities, it is quite a great deal.
    In summary, I feel strongly that NASS has been open and 
transparent and consistent with Congress through our funding 
requests with OMB and through our survey approval process, and 
with the American public through the issuance of all the 
Federal Register notice and conversations about the land 
ownership program. We have fulfilled the recommendations of our 
advisory council and many of the NASS customers by providing a 
product that has been highly valued and appreciated throughout 
the agricultural industry.
    And this concludes my statement, Mr. Chairman, and I am 
open to any questions.
    [The prepared statement of Mr. Reilly follows:]

    Prepared Statement of Joseph T. Reilly, Administrator, National
    Agricultural Statistics Service, U.S. Department of Agriculture,
                            Washington, D.C.
    Chairman Davis, Ranking Member DelBene, and Members of the 
Subcommittee, I appreciate the opportunity to be here today to discuss 
the National Agricultural Statistics Service's (NASS) and Census of 
Agriculture's important role in agriculture. NASS' mission is to 
provide timely, accurate, and useful statistics in service to U.S. 
agriculture. NASS administers the U.S. Agricultural Estimates program, 
which began at the United States Department of Agriculture (USDA) in 
1863. NASS also has conducted the Quinquennial U.S. Census of 
Agriculture since 1997, first collected by the Department of Commerce 
in 1840.
Agricultural Estimates and the Census of Agriculture
    The primary activity of NASS is to provide reliable data to meet 
the decision-making needs of the agricultural industry. The agency 
fulfills its mission through an annual agricultural estimates program 
and the quinquennial Census of Agriculture. NASS prepares estimates for 
over 120 crops and 45 livestock items that are published annually in 
more than 400 separate reports, of which 110 are Principal Economic 
Indicators of the U.S. Farmers, ranchers, and agribusinesses 
voluntarily respond to a series of nationwide surveys about crops, 
livestock, prices, chemical use, and other agricultural activities each 
year. Surveys are conducted during the growing season to measure the 
impact of weather, pests, and other factors on crop production. In many 
cases, NASS supplements farmer surveys with field observations of plan 
counts and measurements. NASS also uses administrative data from other 
USDA, Federal and state agencies; data on imports and exports; and 
other survey data to ensure official estimates accurately represent 
agricultural inventories.
Stakeholder Input
    NASS annually seeks input from the public on determining priorities 
and improving its products and processes. It consults with customers 
and stakeholders through meetings of the Secretary of Agriculture's 
Advisory Committee on Agriculture Statistics, interaction with 
producers, data users meetings with agribusinesses and commodity 
groups, special briefings for agricultural leaders during the release 
of major reports, numerous individual contacts, and through Federal 
Register notices issued to the public. In response to this input, NASS 
continues to improve the quality and accessibility of its reports. The 
agency has adjusted its agricultural estimates program and published 
reports, and has expanded electronic access capabilities. All reports 
issued by NASS' Agricultural Statistics Board are made available to the 
public at a previously announced release time to ensure equal access to 
the information. All national statistical reports and data products, 
including graphics, are available on the Web, as well as in printed 
form, at the time they are released. Customers can electronically 
subscribe to NASS reports and download them in an easily accessible 
format using standard software. NASS also provides free Rich Site 
Summary (RSS). A summary of NASS and other USDA statistical data is 
produced annually in USDA's Agricultural Statistics, available on the 
NASS home page or in hard copy.
Collaboration with Other Agencies
    NASS conducts special surveys and provides consulting services for 
USDA agencies, other Federal or state agencies, universities, and 
agricultural organizations on a cost-reimbursable basis. Consulting 
services include assistance with survey methodology, questionnaire and 
sample design, information resource management, statistical analysis, 
and data collection. NASS has assisted USDA agencies in programs that 
monitor nutrition, food safety, environmental quality, and customer 
satisfaction. In cooperation with State Departments of Agriculture, 
land-grant universities, and industry groups, NASS conducts over 130 
special surveys each year covering a wide range of issues such as farm 
injury, nursery and horticulture, equine, farm finance, fruits and 
nuts, vegetables, and cropping practices.
International Programs
    NASS provides technical assistance and training to improve 
agricultural statistical programs in other countries in cooperation 
with other government agencies on a cost-reimbursable basis. The NASS 
international program focuses on developing and emerging-market 
countries in Asia, Africa, Central and South America, and Eastern 
Europe. NASS assists countries in applying modern statistical 
methodology, including sample survey techniques. Accurate information 
about other countries is essential for successfully marketing U.S. farm 
products throughout the world. NASS has been an important contributor 
to the U.N. Global Strategy for Agricultural and Rural Statistics, and 
to the U.S. Feed the Future Program, contributing to better statistics 
for USDA global estimates of food supply.
An Enhanced Research Program
    NASS's research program, which is focused on innovation and 
enhancement in statistical methods, business processes and data 
products in support, sustainment and improvement of NASS programs, has 
allowed the development of new statistical models for the estimating 
program; computer editing applications to replace manual review; 
expanded modes of data collection to include Computer Assisted Personal 
Interviewing and Computer Assisted Web Interviewing; implemented 
quality assurance protocols in routine operations; developed two new 
tools using remote sensing data--CropScape and VegScape; and further 
benefited from computer-based processing technology.
Agricultural Estimates
    Annually, NASS issues over 400 agricultural estimates reports that 
are critically important in assessing current supply and demand in 
agricultural commodities. Producers, agribusinesses, farm 
organizations, commodity groups, economists, public officials, and 
others use the data for decision-making. The statistics NASS collects 
and disseminates ensure buyers and sellers have access to the same 
official statistics at the same pre-announced time, and making markets 
fair. The free flow of information minimizes price fluctuations for 
U.S. producers, makes commodity markets more efficient, and makes our 
nation's agricultural industry more competitive. The data has become 
increasingly important as producers rely on future contracts to manage 
risks. In the latest farm bill, county level information is critical in 
implementing the Agriculture Revenue Coverage (ARC) and Price Loss 
Coverage (PLC) programs administered by the Farm Service Agency.
Census of Agriculture
    In 1997, Congress adopted the Census of Agriculture Act of 1997 
(the ``Act''), which requires USDA to conduct the Census of Agriculture 
every 5 years. The Census of Agriculture provides comprehensive data on 
the agricultural sector at the national, state, and county level. The 
Census of Agriculture is the only source for this information on a 
local level and is extremely important to the agricultural community. 
Prior to 1997 the Department of Commerce, Bureau of Census (BOC) 
conducted the Census of Agriculture and Census special studies. These 
surveys were conducted by BOC pursuant to BOC's authority under Title 
13 of the U.S. Code to require responses to the Census.<SUP>a</SUP> In 
addition to the requirement to conduct the quinquennial Census of 
Agriculture, the Act authorizes USDA, ``in connection with the 
Census,'' to ``conduct any survey or other information collection, and 
employ any sampling or other statistical method, that [USDA] determines 
is appropriate.'' <SUP>b</SUP> The Act also provides that anyone ``who 
refuses or willfully neglects to answer a question, shall be fined not 
more than $100.'' The Act of 1997 is what provides NASS the 
``mandatory'' authority to conduct the Census of Agriculture and 
associated special studies.
---------------------------------------------------------------------------
    \a\ See 1987 Census of Agriculture, Volume 3, Part 2, 
``Agricultural Economics and Land Ownership Survey (1988)'', at 
Appendix B, Report Forms and Information Sheets (available at http://
usda.mannlib.cornell.edu/usda/AgCensusImages/1987/03/02/1987-03-02-
appendixes.pdf), which has a copy of the AELOS questionnaire, which 
states: ``[R]esponse to this inquiry is required by law (title 13, U.S. 
Code).''
    \b\ Pub. L. 105-113 (codified primarily at 7 U.S.C.  2204g); 7 
U.S.C.  2204g(b).
---------------------------------------------------------------------------
    NASS recently published a Census of Agriculture for all 50 states 
and Puerto Rico through a progressively detailed series of releases. 
NASS issued a preliminary release of 2012 Census of Agriculture data in 
February 2014 that contained high level estimates at the U.S. and state 
level. In May 2014 NASS released the full Volume I series of data at 
the U.S., state and county level. In addition to the in-depth large 
publication released in May 2014, a number of special tabulations were 
subsequently released. Those include state and county profiles; 
Congressional District Profiles; Watershed Publication; Race, Ethnicity 
and Gender Profiles and Specialty Crop Report.
    After each Census of Agriculture is complete NASS uses the results 
to identify specific sectors of agriculture to collect in-depth 
details. Since the 2012 Census was published, NASS has conducted the 
following special studies: Farm and Ranch Irrigation Survey (FRIS), 
Census of Aquaculture, Tenure Ownership and Transition of Agricultural 
Land (TOTAL), Census of Horticulture, and Organic Production Survey. In 
2016 NASS plans to conduct a special study on Local Foods. This will 
help evaluate the manner in which local food systems improve community 
food security, and assist populations with limited access to healthy 
food.
    There are numerous, important uses for the data that come from the 
Census of Agriculture and the subsequent special studies. Below are a 
few:

  <bullet> Provide critical data about the demographics and financial 
        well-being of producers and the economic health of the farm 
        sector;

  <bullet> Evaluate historical agricultural trends to formulate farm 
        and rural policies and develop programs that help agricultural 
        producers and ultimately, consumers;

  <bullet> Allocate local and national funds for farm programs, e.g., 
        extension service projects, agricultural research, soil 
        conservation programs, and land-grant colleges and 
        universities;

  <bullet> Develop new and improved methods to increase agricultural 
        production and profitability;

  <bullet> Plan for operations during drought and emergency outbreaks 
        of diseases or infestations of pests;

  <bullet> Make informed decisions for individual operations within the 
        farm, agribusiness, and related food and fiber sectors;

  <bullet> Provide geographic data on production so agribusinesses can 
        locate near major production areas for efficiencies for both 
        producers and agribusinesses;

  <bullet> Develop new and improved methods to increase agricultural 
        production and profitability;

  <bullet> Appraise water use trends and research crop production 
        technologies that maintain precious water resources;

  <bullet> Analyze land ownership and the prospect for new and 
        beginning farmers to either start farming or expand their 
        operations; [and]

  <bullet> Study historic trends, assess current conditions, and plan 
        for the future for both private and public decision-making.

    In 2015 NASS started producing the vital Current Agricultural 
Industrial Reports (CAIR) that were previously discontinued by the 
Department of Commerce. Commodities covered in these reports include: 
Oilseeds, Beans & Nuts; Fats and Oils; Cotton Manmade Fiber Staple & 
Raw Linters; Flour Milling Products, and Grain Crushing's & Co-Products 
Produced. Like other NASS products, these reports support estimation 
requirements for NASS, Economic Research Service (ERS), the World 
Agricultural Outlook Board (WAOB), and the USDA Chief Economist. 
Private industry uses CAIR and other NASS data to monitor the effect of 
international trade on domestic production, evaluate the relationship 
between company and industry performances, market analyses, assess 
current business conditions, and plan future operations.
    NASS is currently looking into the modern farm structure and its 
contributors, focusing on women and new farmers. NASS will modify 
statistical tools to better reflect the changing face of agriculture, 
especially including women, new farmers, and veterans on the farm.
Protecting Producers' Personal and Financial Information
    With every survey NASS conducts, a pledge of confidentiality is 
provided to survey respondents and extensive measures are taken to 
honor that pledge. Title 7, U.S. Code, Section 2276 specifies neither 
the Secretary of Agriculture nor any USDA employee may, ``disclose such 
information to the public, unless such information has been transformed 
into statistical or aggregate form that does not allow the 
identification of the person who supplied particular information.'' 
NASS employs a rigorous process to ensure that that the intent of this 
statute is met. Each year NASS employees are required to sign a 
``Confidentiality Certification'' form that ensures understanding and 
compliance of Title 7 and other statutes covering data confidentiality. 
NASS processes information using approved and certified computer 
technology and protocols that protects data integrity. NASS maintains 
internal policies that specifies algorithms used to aggregate data and 
to determine if a summarized total may be disclosed or suppressed, 
prior to publication. Last, all NASS reports are released at an exact 
pre-determined and publicized time, to ensure that everyone has equal 
and fair access.
Surveys Regarding Farmers' Financial Information
    Publication of data on land ownership characteristics began in 
1880, with the classification of farm tenure. Land ownership surveys 
have been an important tool used to gauge who owns land, the transition 
of land, finances surrounding land, and the availability of land to new 
and beginning farmers. Varying elements of farm financial data have 
been collected since the first agriculture Census was taken in the 
United States in 1840. The principal financial characteristics in 
earlier data collections were value of farm land and sales of 
agricultural products, but in 1890, Census data were also requested on 
farm mortgage debt. In later Censuses, farm taxes were included. Prior 
to NASS taking over the Census of Agriculture from the Department of 
Commerce in 1997, BOC conducted land ownership surveys using mandatory 
authority under Title 13 of the United States Code. Most recently, BOC 
conducted the Agricultural Economics and Land Ownership (AELOS) survey 
in 1988, as a follow-on survey to the 1987 Census of Agriculture. AELOS 
included the majority of the financial measures collected in the 1979 
and earlier Farm Finance Surveys and greatly expands the data on land 
ownership. That survey was conducted under BOC's mandatory authority. 
After the adoption of the Census of Agriculture Act, NASS conducted the 
AELOS survey in 1999, as a follow-on survey to the 1997 Census of 
Agriculture, using mandatory authority. As set forth in the report on 
the 1997 Census of Agriculture, ``AELOS was an integral part of the 
1997 Census of Agriculture and was conducted under the authority of the 
Census of Agriculture Act of 1997 . . . .'' In 2014, NASS changed the 
name of the AELOS survey to the Tenure, Ownership, and Transition of 
Agricultural Land (TOTAL). As set forth in the Federal Register notice 
announcing it, ``[t]he 2014 Tenure, Ownership, and Transition of 
Agricultural Land (TOTAL) is an integral part of the 2012 Census of 
Agriculture and is conducted under the authority of the Census of 
Agriculture Act of 1997.'' The 2014 TOTAL sampling population heavily 
overlapped the sampling population for the Agricultural Resources 
Management Survey (ARMS). The ARMS is an annual economic survey 
conducted jointly by NASS and the Economic Research Service (ERS). In 
order to save taxpayer resources and minimize burden on respondents, 
NASS and ERS integrated the two surveys.
Summary
    NASS's dedication to research and continued process improvement 
will ensure the organization remains relevant and viable to fill the 
urgent need for timely, accurate, and useful statistics in service to 
U.S. agriculture. Knowing where our food is coming from, who is 
producing it, how much is being produced, and how the agricultural 
sector is performing financially adds to our national security by 
providing assurance that Americans have a safe, nutritious, affordable, 
and adequate supply of food.
    This concludes my statement, Mr. Chairman. Thank you for the 
opportunity to submit this statement for the record.

    The Chairman. Thank you, Mr. Reilly. We appreciate you 
recognizing some of the points that I brought up during my 
opening statement about personal information, especially dental 
insurance, health insurance costs, but I want to start with a 
question.
    Are you generally a person willing to take risks, or do you 
try to avoid taking risks?
    Mr. Reilly. Well, sir, if you ask my wife, she will tell 
you that I am a risk-taker sometimes, but I am also very 
conservative in nature.
    The Chairman. But how does one man answer in your situation 
question number 7? Please put Slide 8 up on the screen.
    The Chairman. Question number 7 in the Census TOTAL survey 
asks that exact question, and asks you to rate from a score to 
zero as not willing to take risks, or 10, willing to take 
risks, how do you answer that question? And you can imagine the 
frustration some of our farmers feel. And I guess I need to ask 
you, why is that question on there?
    Mr. Reilly. When you look for questions like that, part of 
what individuals are looking for is dealing with farm and farm 
operations, and looking at the issues that they have to deal 
with managing their operation, how much risk do they want to 
incur, and what are they doing to try to mitigate risks 
involving with the farm operation.
    The Chairman. Well, Mr. Reilly, the farmers in my district 
are risk-takers. I don't think we need to ask the psychology of 
the farmer and the farm operation on a questionnaire that is 
already being determined to be intrusive. That is a question 
that does not need to be on there, among other questions, and I 
would hope that you would take that statement back.
    Let me go into a couple more issues. The House report 
language that accompanied the Census of Agriculture Act of 1997 
contains some instructions for your agency. It reads, ``The 
Committee recognizes the intrusive nature of a Census and the 
need to obtain relevant data for policymakers. Producers have 
serious time constraints and should only have to answer 
questionnaires that are concise, easily readable, 
understandable, and relevant to today's agricultural 
operations. The Committee is sympathetic to concerns of time 
spent filling out unnecessary paperwork.''
    That is why I bring this question up. I don't think it is 
relevant. But were you aware of this report language?
    Mr. Reilly. I was involved in the transfer program when the 
Census transferred, but no, sir, I was not aware of that 
specific language.
    The Chairman. Okay. Do you think NASS was mindful of this 
when TOTAL was drafted?
    Mr. Reilly. We go through a pretty extensive review process 
of trying to determine the content of all of our questionnaires 
that we issue. We gather information from our stakeholders, 
that is why we have such avenues as our advisory committee on 
agriculture statistics. We meet with various officials 
throughout the Department. We meet with farm organizations. I 
have ongoing meetings with the National Association of State 
Departments of Agriculture, and all of their Commissioners, 
Secretaries, and Directors of Agriculture, and we often discuss 
what are the data needs and what is necessary, and what 
individuals are looking for to manage various programs. And 
then to the best of our ability, we try to craft questions and 
things that will provide that needed information.
    The Chairman. Thank you. When and why did the USDA and NASS 
decide to conduct the TOTAL survey using the mandatory 
authority of the Census? Please put up Slide 1.
    The Chairman. This document produced to the Committee by 
USDA shows there was a plan being carried out. It reads, ``I 
stopped by to see Joe R.,'' which is you. I believe so. Is 
there another Joe R.?
    Mr. Reilly. No.
    The Chairman. All right. ``To clarify how he wants to 
proceed. He says, He is in agreement to replace ARMS III with 
TOTAL, and asked for mandatory authority.'' Take a moment to 
read that e-mail to refresh your memory. And I ask you again, 
when and why did the USDA and NASS decide to conduct the TOTAL 
survey using the mandatory authority of the Census? Was it 
before or after this e-mail?
    Mr. Reilly. Since I was not a party of this e-mail, and 
looking at the date of March 26, 2014, again, I will go back 
and look at our budget planning documents that were part of the 
2015 budget submission. And clearly in our explanatory notes 
there, in our request for the appropriations, we did spell out 
that we were requesting to conduct a survey using mandatory 
reporting authority, and we did have descriptions in there 
describing how we intended to integrate this with the 
Agricultural Resource Management Study. So----
    The Chairman. Do you recall----
    Mr. Reilly.--when you talk about the----
    The Chairman. Do you----
    Mr. Reilly.--decision that----
    The Chairman. Do you recall this conversation with Renee 
Picanso?
    Mr. Reilly. I don't recall this specific conversation, but 
I do recall the general process of what we were going through 
because, from the beginning of the process, since, again, we 
looked at historical precedence in being that every one of the 
land ownership surveys that was conducted under the Bureau of 
Census' authority, and the first one of which was transferred 
and conducted by the U.S. Department of Agriculture, each one 
of those was conducted under mandatory authority.
    My understanding from the beginning, even from day one, and 
again, I just want to say that we were open and transparent 
because, even in our budget request, which went in early March, 
March 4 of 2014, we clearly put in there what our intention was 
and how we planned on doing it.
    The Chairman. Mr. Reilly, as you look at that e-mail from 
Renee Picanso, says she, who refers to you, seemed to think we 
were the ones pushing the dual mandatory authority. What do you 
think that means?
    Mr. Reilly. I am unclear what that means, what dual 
mandatory authority means. I think we were working on the 
details of how to integrate the two processes between the land 
ownership survey TOTAL and ARMS, and in doing so, and even in 
our Federal Register notice that we issued, it was our 
intention that we were suspending ARMS for the data collection 
year, and replacing the data collection with this TOTAL survey, 
again, with the idea that we were trying to minimize the 
reporting burden on the American farmer and the American 
public, and to ensure that we could obtain quality data, and to 
do it in a more cost-effective measure.
    The Chairman. So what you said just a few minutes ago was 
that the mandatory nature, in your opinion, was based upon the 
mandatory nature of what was expected when this was part of the 
Census Bureau, right?
    Mr. Reilly. And also with the first survey, the land 
ownership survey, conducted by USDA back in 1999. The same 
survey was mandatory at that time.
    The Chairman. Okay, and as you sit here today though, what 
is your understanding of the decision to mandate TOTAL? It is 
the Census' fault? What is it? Or it is the 1999 survey?
    Mr. Reilly. Well, again, many of the follow-on surveys are 
mandated because of the nature of what we are trying to do, and 
the sensitive data that we are trying to collect on those 
programs. If you think about the land ownership survey, it is 
essentially a Census of agricultural land in this country, and 
it is very important to try to figure out what is going on with 
the 915 million acres. And so having this mandatory authority 
in conducting this land ownership survey is really critical 
because we are going to two separate audiences. One is the farm 
operator, who is very involved with agriculture, but the other 
critical component is the farm landlord who, in many instances, 
is not involved in agriculture. Could be a resident, attorney, 
doctor, whatever, and have a practice, in New York City or any 
city across the country.
    So again, I am taking it back to the broader spectrum of, 
to do a complete agricultural land survey, you have to cover 
both of those segments; both the farm operator and owner, and 
the land owner who is not an operator.
    The Chairman. All right. Well, thank you.
    I will defer to my Ranking Member, Ms. DelBene, for 5 
minutes of questions.
    Ms. DelBene. Thank you, Mr. Chairman. First, I would like 
to submit for the record this memo from USDA that talks about 
both NASS and ERS wanting to use mandatory authority from the 
Census to increase response rates. So that is some information 
to highlight what we were just talking about.
    [The document referred to is located on p. 121.]
    Thank you again, Mr. Reilly, for being here today. I 
appreciate that you and others at NASS have been working with 
folks on the Committee, and I would like to note here for 
everyone that throughout correspondence with the Committee, 
NASS has provided 49,000 documents and two briefings to the 
Committee. And so we appreciate all of your cooperation.
    Mr. Reilly, I am aware that there is an Advisory Committee 
on Agricultural Statistics, and I wondered if you could tell us 
a little bit about the makeup of that committee, and how their 
opinions are incorporated in the process.
    Mr. Reilly. Our Advisory Committee on Agriculture 
Statistics is a diverse membership. It is 20 committee members 
with two ex officio members. Out of the 20 members, we try to 
make sure that we have diverse representation from across 
agriculture. So we will have representatives that are there 
from commodity groups, commodity organizations. We will have 
representatives there from the universities', land-grant 
universities, we will have representatives that represent State 
Departments of Agriculture, and most importantly we have 
farmers and operators themselves who sit on our committee to 
provide us advice.
    Normally, knowing there is a lot of competing interests for 
agricultural data, the committee helps us to shape what are the 
data needs out there needed to define policy and implement 
certain programs throughout agriculture. Knowing that we have 
limited financial resources, they give us a gauge of how to put 
it in priority order. Knowing that you can't do everything, 
what is the most important. So with limited financial 
resources, we can focus on what the committee says are the most 
important agricultural data needs in the country.
    Ms. DelBene. It seems like it could be helpful to make sure 
that representatives, like all of us here in D.C., could help 
alert our producers to surveys that are coming out, and 
reiterate the importance of accurate information and how that 
might be used, as well as the number of programs that use NASS 
data so that folks are aware of that.
    Do you meet with agriculture groups on a regular basis, and 
is this something you have discussed so that people have more 
information about what is happening with the information you 
are collecting?
    Mr. Reilly. Yes. We hold a very large agricultural data 
user meeting in Chicago each year. It conducted in October. We 
meet regularly with people from different areas across the 
country who advise us on our chemical use program. I meet 
quarterly and at the end of the year with the National 
Association of State Departments of Agriculture, all the 
Commissioners, Secretaries, and Directors, who are advising me 
what needs they have to administer agricultural programs within 
their states, and on an ongoing basis I am meeting with 
representatives of all the different commodity groups. My door 
is always open, and normally on any given week, I have visitors 
who will come in from the corn growers, horticulture industry, 
Soybean Association, everything, and we are always discussing 
about the needs that they have for their particular industry 
and for agriculture in general.
    Ms. DelBene. Several years ago, you suspended several 
specialized reports that were important to some sectors in 
agriculture. I understand that it was budget concerns that led 
to those suspensions, but can you share with the Committee how 
your budget works; whether you get funding for specific work or 
whether you are prioritizing what types of work you are doing, 
given the resources that you have?
    Mr. Reilly. That is a very good question. Again, going back 
to my statement, talking about our overall program, we have two 
defined appropriations. So we get funding and appropriations 
for our Agricultural Estimates program and then for the Census 
of Agriculture program. And on the Agricultural Estimates 
program, many of these are the ones I refer to as the Principle 
Economic Indicators of the United States. So if any financial 
limitations come in play, those are our core ones that we want 
to keep in place. Second to that, we work with other USDA 
agencies that administer many aspects of the farm bill. So if 
something is required and data is needed, whether it is for 
crop insurance, disaster assistance, or things like that, those 
are our next level of priority that goes out in our 
Agricultural Estimates program, and----
    Ms. DelBene. And just one last thing, since I am running 
out of time. Do you get a specific line item for the Census of 
Agriculture itself in the budget?
    Mr. Reilly. Yes, we get an appropriation for the Census of 
Agriculture and all its related programs, and one for the 
Agricultural Estimates program and its sub-activities.
    Ms. DelBene. Thank you very much.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    The chair will let everyone know votes have been called. I 
would like to allow my colleague, Mr. Scott, to ask his 
questions before we take off, and then we will go into recess 
and come back immediately after the two votes.
    Mr. Scott, you are recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    And, Mr. Reilly, did I understand you to say that the 
reason the questions were on the survey were to deal with 
whether or not the farmer could pay their bills? Is that 
effectively what you are asking?
    Mr. Reilly. Well, not necessarily, sir, whether they could 
pay their bills.
    Mr. Scott. What was your justification for asking those 
additional questions?
    Mr. Reilly. Okay. In recognizing agriculture, 97 percent of 
all the farms in this country are family-operated farms, and 
many individuals and policymakers, as you know, are concerned 
about maintaining the family farm in our nation. A family farm 
as a component, we know what their operating expenses are just 
for the business side of the farm operation, but out of our 2.1 
million farms in the country, less than \1/2\ of them are 
actually full-time farmers who can make a living doing farming 
full-time. So in looking at future security, the off-farm, what 
they do off-farm in their private employment, what kind of 
benefits, and what kind of expenses that they have to incur are 
key to the overall economic picture of the farm.
    Mr. Scott. Let's talk----
    Mr. Reilly. And is kind of unique to agriculture.
    Mr. Scott. Let's talk about one of those expenses. First, 
what if I simply choose not to fill this form out? I have, as a 
citizen of this country, the ability to just say I am not 
filling this out.
    Mr. Reilly. And many people do. Not everyone, even though 
it is mandatory fill it out, that----
    Mr. Scott. But according to the law, the citizen is 
required to fill it out?
    Mr. Reilly. That is correct.
    Mr. Scott. But what are the consequences for not filling it 
out?
    Mr. Reilly. The penalty is a $100 penalty.
    Mr. Scott. It is a $100 penalty. That may be the solution, 
to eliminate the penalty.
    I want to ask you about this question. Contributions to 
individuals outside of the household, including alimony, child 
support, gifts, and charitable contributions. With all due 
respect, it is none of your business what somebody gives to a 
charity. It is not. None of my business as the government. We 
have a First Amendment in this country. What gives you the 
right to demand that people tell you what they are giving to a 
charity?
    Mr. Reilly. Well, Congressman, and I respect privacy as 
well as everyone, and I know the sensitivity of a lot of this 
information, and I want you to know that we put a lot of effort 
on making sure that the same law that requires mandatory 
answers is the same law that guarantees the confidentiality and 
the protection of that information.
    Mr. Scott. Let me interrupt you there, I am sorry, because 
we are getting short on time. OPM was hacked. So when you have 
my information, if you have all of my information, can you 
guarantee me that it will never be hacked and never be made 
public?
    Mr. Reilly. We do extensive security----
    Mr. Scott. Would you, yes or no? OPM couldn't guarantee it.
    Mr. Reilly. Well----
    Mr. Scott. Can your agency guarantee that all of this 
privileged personal information, including what a person gives 
to their church or another charity they may choose to, could 
never be hacked and made public?
    Mr. Reilly. Well, sir, what I can guarantee is that we do 
everything possible to secure the information. We try to stay 
up-to-date with all of our IT protocols----
    Mr. Scott. I will----
    Mr. Reilly.--and things like that.
    Mr. Scott. I will take that as a no, with all due respect. 
I am somewhat taken aback by this, and I am also taken aback by 
the fact that it seems, as you go through the questions, and 
the slides that we have looked at and the e-mails, it seems 
that if it wasn't specifically illegal, then the discretion was 
used to do it anyway. And so where Congress gives an authority 
to do a survey that much of the information might be necessary 
for land use, since we didn't specifically say you can't do 
this, this, and this, you used your discretion to make it 
mandatory. Is that fair enough?
    Mr. Reilly. The discretion that we used was to look at the 
entirety of the data that was trying to be collected, and apply 
that discretion to everything that was on the form. Yes, sir.
    Mr. Scott. But you used discretion to make it mandatory 
instead of voluntary.
    Mr. Reilly. Well, when I say discretion, again, following 
the principles and practices that every program that we have 
conducted since moving the Census of Agriculture----
    Mr. Scott. But would you----
    Mr. Reilly.--program----
    Mr. Scott.--agree that there was a change to make this 
mandatory instead of voluntary?
    Mr. Reilly. Could you repeat that again, sir? I----
    Mr. Scott. Would you agree that there was a change to make 
this mandatory? This was not a mandatory report. The household 
characteristics was not a mandatory report until you used your 
discretion to make it one. Is that correct?
    Mr. Reilly. No. Again, going back and looking at all the 
previous surveys of the aspects of this, the household 
characteristics and information of off-farm income----
    Mr. Scott. Well, let me----
    Mr. Reilly.--and things like that were----
    Mr. Scott. Let me rephrase it. What did you----
    Mr. Reilly.--in previous surveys.
    Mr. Scott. What did you add this year?
    Mr. Reilly. Which exact questions?
    Mr. Scott. Yes.
    Mr. Reilly. I would have to look and go through every exact 
question. But one of the principles of----
    Mr. Scott. Let me ask one other thing then. What do you not 
have the authority to add to the question?
    Mr. Reilly. We have the authority to do the survey and add 
things that are relevant and have to have a justified need for 
what the data is going to be used for.
    Mr. Scott. Justify the need for making somebody disclose 
their charitable contributions to the government.
    Mr. Reilly. Again, sir, that would go to the overall 
economic well-being of that household on how much----
    Mr. Scott. Using that standard, there is no limit to what 
you can ask the American public.
    Mr. Reilly. And, again, going through the process, what I 
rely on is being open and transparent. When we go through this 
in our discussions and in the development of the questionnaire, 
we lay out right from the beginning in all of our Federal 
Register notices what we intend to ask.
    Mr. Scott. Mr. Chairman, my time has expired, but this is 
just a clear example of government overreach that we have 
responsibility to rein-in.
    And with that, I will yield what time I don't have left.
    The Chairman. The gentleman's time has expired.
    With that, since we are in the midst of a two-vote series, 
the chair will call this Subcommittee into recess until we 
return immediately after votes.
    [Recess.]
    The Chairman. This hearing of the Subcommittee on 
Biotechnology, Horticulture, and Research will come back to 
order.
    Welcome back, Mr. Reilly. I--well, actually, thanks for 
allowing us the time to get back here. I apologize for making 
you wait. I appreciate your time here.
    We are going to go straight into the questioning, and it is 
for the Minority side.
    I recognize the Ranking Member of the full Agriculture 
Committee, Mr. Peterson, for 5 minutes.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman.
    And, Mr. Reilly, yesterday or the day before, there was a 
story in a paper back home about farmers in two counties in 
North Dakota not receiving ARC county payments apparently 
because their neighbors had not sent in the NASS data, or the 
ones that did send them in were people that irrigated, and the 
ones that didn't irrigate didn't send them in. In any event, 
all of the counties around these two counties received 
payments, and it was quoted in there they thought their 
payments should have been $30 an acre but they got zero. Are 
you familiar with this situation?
    [The document referred to is located on p. 122.]
    Mr. Reilly. Not of that particular situation, no, but I am 
familiar with the program itself and how our data is used in 
the program.
    Mr. Peterson. Well, so we are using data to determine these 
payments, that is given by farmers that are not actually 
required by any law to do it.
    Mr. Reilly. It is voluntary, yes.
    Mr. Peterson. Well, what kind of a crazy system is that? 
Now, I was never in favor of this ARC county thing in the first 
place. If we had the PLC, this wouldn't have been an issue. But 
you can't explain to people how this is possible; that they 
were expecting to receive $30,000 worth of payments, and they 
are getting zero. And apparently, for some reason or another, 
they can't use the RMA data in those counties either. So this 
is I believe Stutsman and LaMoure County in North Dakota.
    First of all, I guess you need to become familiar with it, 
and second of all, there has to be a way to fix this. It is not 
right to treat people like this. So would you be able to fix it 
if there was--they said that it was only 15 percent of the 
people that sent their surveys in in that county?
    Mr. Reilly. Well, Congressman, this goes back to one of our 
fundamental missions is providing credible, reliable data in 
support of all kind of policies in farm programs. And in the 
data that is used for this, we are providing information on 
county estimates, which is the acreage, average yield, and 
production within the county, and we rely on the voluntary 
cooperation of the farmers to do that. And in our working 
relationship, both with the Risk Management Agency and the Farm 
Service Agency, we do, to the best of our ability, collect 
enough information to provide that data that is reliable for 
the counties. One of the situations that we deal with is not 
every county is equal with the number of people and the number 
of farms, but in the situations where we cannot provide 
credible, defensible information, we do not publish the 
information for that particular county.
    Mr. Peterson. Then if you don't publish information, they 
wouldn't be able to get the payments?
    Mr. Reilly. Well, again, my agency does not administer the 
program. All we do is deliver the data.
    Mr. Peterson. So if----
    Mr. Reilly. And FSA and RMA are looking for the best, most 
accurate data available, and in the situations like that, they 
have difficulties finding a source of data to determine, but 
that is not in my area.
    Mr. Peterson. If they only had 15 percent of the farmers 
respond with the NASS data, would that be considered 
inadequate?
    Mr. Reilly. It is not necessarily 15 percent of the 
farmers, there are two indications; we want to get a good 
distribution of the farmers, and we look to see how much of the 
coverage or the acreage or production we cover. So in a 
situation, if there were large operators and maybe a handful of 
them that we knew covered over 25 percent of the production of 
that commodity in that county, that would meet our criteria for 
reliability.
    Mr. Peterson. I think that----
    Mr. Reilly.--would be able to do it.
    Mr. Peterson.--maybe is what happened, because the large 
farmers that are irrigated sent in their data, and the smaller 
farmers that are not irrigated didn't, and so the irrigated 
acres got counted, and the yield is 40, 50 bushel more than the 
non-irrigated. Now, I don't know.
    Anyway, I would appreciate it if you would look into it. It 
is not my district, but----
    Mr. Reilly. We could look into that and get back to you 
with more information, yes, sir.
    Mr. Peterson. All right. And then the other thing that I am 
having questions about in my district is how you set the barley 
nationwide numbers. This is something I have been fighting over 
ever since I have been here in terms of trying to differentiate 
between feed barley and malting barley. And apparently, there 
have been questions asked of your agency about how you came up 
with this number on barley, and my people don't think they have 
gotten a good answer about how that was established. Do you 
know if it is some percentage of malting barley, some 
percentage of feed barley, how you came up with that number?
    Mr. Reilly. Well, sir, on our prices program, what we do is 
that we publish the prices of barley in three different 
categories. We publish an all-barley price, we publish a feed 
barley price, and a malting barley price. So we have that 
available, those three different components.
    Again, you have to look back to the actual ARC--I am not 
sure if that is the right program, but the farm program itself, 
as to which one of those did they choose to use. Are they 
choosing to use the all-barley price or the feed barley price? 
And I believe in the past, they were using the feed barley 
price, and now may be using the all-barley price. We don't set 
which price is used, we just give the prices on the three 
different categories.
    Mr. Peterson. Well, I guess the issue is if my farmers 
don't feel like they have gotten a good answer on how you came 
up with the all-barley price, which apparently was $5.30 for 
2014, could you submit to my office how you came up with that 
price----
    Mr. Reilly. Yes, we can.
    Mr. Peterson.--and what it was based on, and----
    Mr. Reilly. Yes.
    Mr. Peterson.--so forth?
    Mr. Reilly. We can give you an analysis of how we come up 
with that price.
    Mr. Peterson. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Peterson.
    I now recognize my colleague, Mr. Thompson, from 
Pennsylvania, for 5 minutes.
    Mr. Thompson. Mr. Chairman, thank you so much. Mr. Reilly, 
thank you for being here.
    I appreciate the fact that we work hard to try to have good 
data in order to make good public policy. I think the farm bill 
that we did was a reflection of that and we appreciate that 
data. Although it is not to say I don't hear from my farmers 
from time to time, and they understand that good policy is 
driven by good data. I have tried to make that point when it 
comes to reflecting on the really good things that we were able 
to accomplish in the farm bill. But, they do have a point at 
times, certainly, where there is a balance and making sure that 
we are collecting just the information we need, and we do it in 
a way that is efficient so it doesn't become a burden. And I 
appreciate your help achieving those two objectives.
    I have a couple of questions for you. I understand there 
are two versions of TOTAL. Is that correct?
    Mr. Reilly. Yes, sir.
    Mr. Thompson. Okay. Now, there was the operator version and 
the landlord version. Does that sound accurate?
    Mr. Reilly. That is correct, yes.
    Mr. Thompson. The 1999 AELOS does not look like TOTAL, 
correct?
    Mr. Reilly. When you say does not look, it also had two 
different versions. It had an operator type of version and a 
landowner type of version as well. The exact content in that 
does change over time, but there were two separate components.
    Mr. Thompson. It is the current contents that is the 
distinguishing difference?
    Mr. Reilly. It would be the actual content that--yes, that 
would be a little bit different from the previous.
    Mr. Thompson. Okay. Now, farmers and ranchers are routinely 
asked these questions by ERS through the ARMS III Survey. Is 
that correct, Mr. Reilly?
    Mr. Reilly. They are asked questions in the ARMS survey 
primarily focusing on farm finances and other aspects, yes, but 
nothing on land ownership or intentions of transition of land 
or anything like that.
    Mr. Thompson. Okay. So trying to determine the difference 
then, the difference is that the ARMS III Survey is optional. 
Is that correct?
    Mr. Reilly. It is voluntary, yes.
    Mr. Thompson. Okay, voluntary. Great. Now, one obvious 
rationale for making the TOTAL survey mandatory is to increase 
response rates, and I get that. The more complete data, the 
better the information. Perhaps historically NASS and ERS were 
not satisfied with the response rates for prior surveys, 
however, this document shows that the response rates 
historically were acceptable, and I am assuming statistically 
acceptable. Can we put up Slide 2 up on the screen?
    Mr. Thompson. Is it there already? Okay. The 50 percent and 
the 74 percent returns seem acceptable. Now, again, Mr. Reilly, 
what was the motivation for conducting TOTAL using the 
mandatory Census authority?
    Mr. Reilly. Well, when you look at the term acceptable on 
the two response rates, and when you look at the reliability, 
especially for the landlord side, it is pushing some of our 
reliability boundaries of what we would deem acceptable. Now, 
we do publish with all of our numbers sort of a measure of 
error that goes with each one, but if sometimes those bounds 
are too great then we will not be able to publish the data.
    Now, since that time, we have been experiencing, and all 
statistical agencies have been experiencing, declining response 
rates. So a response rate that you achieved in 1999 looking 
forward, we were very apprehensive that, especially on the 
landlord side, whether we were going to be able to collect 
enough reliable data.
    Mr. Thompson. Also in the e-mail shown on the screen, it 
says, ``We didn't actually publish the percent.'' Instead, they 
published ``a bunch of text to try and confuse people about our 
actual rate.'' Who was NASS staff trying to confuse and why?
    Mr. Reilly. Well, I cannot say who is the author of this e-
mail, but in looking at our description, we put out a lot of 
different numbers and adjectives to describe the quality of our 
data. Response is one of them, and response is sort of how many 
do you send out, how many do you get back and take that out. We 
also put in there reliabilities of how variable the information 
is, and also within a survey itself, we may have gotten a 
questionnaire back but major portions of those questions or 
items within that may remain blank. So you just can't always 
look at just one number and say I received X percent back, you 
have to look at the details within that, how many of the 
questions were actually answered, or how many had to be 
statistically looked at, and whether it was imputation or 
something, to try to complete the missing items. So there are 
different measures of quality that we try to issue.
    Mr. Thompson. No, I understand----
    Mr. Reilly. Okay.
    Mr. Thompson. I understand that, and I just want to 
clarify--the narrative concerns me, just the implications 
about, ``a bunch of published a bunch of text to try and 
confuse people about our actual rate.'' I certainly understand 
the standard deviation, and there are so many places to glean 
information from a survey participation rate and response, and 
those types of things, but any clarification in terms of what 
was being communicated or inferred in that e-mail by that 
statement?
    Mr. Reilly. And, again, I am not sure what specifically we 
are talking about, but over time, OMB has changed some of their 
requirements of how we calculate and the formula that goes into 
calculating a response rate. It used to be simple, taking sort 
of the number of forms you sent out and the number of forms 
that you received back in. But since that time, there have been 
new parameters and requirements placed on how we calculate 
this, and when you start describing out-of-businesses, how you 
treat an out-of-business or somebody that says they are no 
longer a farmer, or things like that, and you do that, the text 
is very confusing based on what people normally perceive as a 
response rate.
    Mr. Thompson. Sure. If you wouldn't mind and then I----
    Mr. Reilly. But we could clarify, we could provide you 
exactly how the responses----
    Mr. Thompson. Yes, if you work with your staff----
    Mr. Reilly.--calculate.
    Mr. Thompson.--to get a clarification for that, I would 
appreciate it.
    Mr. Reilly. Yes.
    Mr. Thompson. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I would now like to recognize my colleague, Ms. Kuster, for 
5 minutes.
    Ms. Kuster. Thank you very much. Thank you Chairman Davis 
and Ranking Member DelBene. And thank you to the Administrator 
for being with us.
    I actually find this information helpful and very 
interesting, but I come from a much smaller state with much 
smaller farms. And it is important for me to understand the 
health and well-being of the communities in the rural part of 
my state, as well as the economy, and within families to 
understand do they have to take jobs off the farm to make life 
work, which is typically the case. It does seem to me, from 
this hearing, that there may be either a lack of coordination 
or maybe a lack of information and outreach that is causing the 
issues that have come up. I am wondering, can you suggest to me 
ways that NASS could improve outreach efforts to farmers, to 
industry, so that farmers will have a better understanding of 
the survey, know when and how the survey will be administered. 
But most importantly, they would have an understanding of how 
this is information on an aggregate level, not personal 
information. Also, how this type of data is helpful in making 
policy that then will come back to benefit their lives and 
rural communities.
    Mr. Reilly. And that is a very good question, and we, 
within our agency, realize that we rely on the cooperation of 
the farmers and ranchers, and we are doing a lot through our 
public affairs area of describing sort of what it is we are 
collecting. But more importantly, we are trying to educate as 
many as we can on the uses. And, for example, we have worked 
with many of the commodity industries, going back to show how 
the information we collect relates back to the ARC programs, 
how it relates back to crop insurance. And we have had joint 
brochures and explanatory statements developed both from us, 
RMA, the Corn Growers Association and Soybean Growers 
Association, that are looking at and trying to describe back to 
the farmers and ranchers how the data you provide to NASS is 
used to get you a crop insurance payment. And the more we 
educate and the more we can get that, the better off we are 
going to be able to complete our mission of getting the data, 
and the farmers will know how it is being used. And that is the 
critical thing that we are trying to communicate.
    Ms. Kuster. Yes, and I agree with you. I think that is 
critical. And I would say this is a very bipartisan Committee, 
that is rare on Capitol Hill, and we would like to work with 
you if there is a way that we can help communicate to our 
constituents, put out a press release, put it up on our 
websites in a way that helps make that case that this 
information is not meant to be intrusive, it is meant to be 
instructive as to how we make these decisions of public policy, 
and as you say, how the checks flow coming back to the farmers.
    So thank you for your testimony. I appreciate your time.
    Mr. Thompson [presiding.] The gentlelady yields back.
    I now recognize the gentleman from Washington, Mr. 
Newhouse.
    Mr. Newhouse. Thank you. Thank you, Mr. Chairman. Mr. 
Reilly, welcome.
    Mr. Reilly. Thank you.
    Mr. Newhouse. I appreciate your time here, your 
contributing to this conversation. It is very important stuff.
    I am a farmer myself. I have filled out many of the 
surveys, sometimes begrudgingly.
    Mr. Reilly. Yes, I understand.
    Mr. Newhouse. But I understand the importance of the 
information as it is gathered. Information is power and we need 
to make sure that producers in this country have good 
information, and so it is important stuff. That is why I am 
concerned about the program overall, and we want to make sure 
that there is confidence in it, that people see not only the 
need for it, but it is given that surveys are conducted in such 
a way that people feel that they are being treated fairly, and 
not questioning the information or the use of it, but just in 
the manner it is secured. Like I tried to express at the 
outset, farmers are busy----
    Mr. Reilly. Yes.
    Mr. Newhouse.--as you well know. We have a million things 
to do before yesterday, and to sit down and fill out a survey 
that is going to take 30 minutes, and turns out to be several 
hours, we don't get any money for that, and there are other 
things that are high on the priority list. So it is a very 
sensitive thing that we have to be very careful in protecting 
our credibility in this.
    I have a couple of questions. The 2014 TOTAL survey, 
administered by NASS, my understanding was 24 pages long, had 
326 questions. Is that correct?
    Mr. Reilly. Well, that would probably have been the 
operator component, yes.
    Mr. Newhouse. Okay.
    Mr. Reilly. There are two different components, yes.
    Mr. Newhouse. So would you describe in your estimation as 
that questionnaire being concise as Congress directed that it 
should be?
    Mr. Reilly. Well, again, in looking at serving the needs of 
the public, we operate under several different parameters. We 
have to be very cognizant of minimizing the response burden. 
And we work with strict guidance through the OMB pre-approval 
process of looking at the response burden that we have, and we 
still have to be able to collect the needed information. So as 
we go through, again, every step of our process, I won't say it 
is actually one of our golden rules, but we try to keep the 
response burden as minimal as possible. And if we are looking 
for new items and things like that, we try to take items off to 
keep it equivalent. But the needs and the data needs for 
agriculture do change over time, and there has been an appetite 
for more information as more needs are being identified across 
the country. But we are very aware of the response burden, and 
we work to make sure that everything that gets on that 
document. And again, as part of the review process in the 
Federal Register notice, we do send it out and give it to the 
public to look at--here is the type of questions, and see are 
we hitting the target, anybody have any comments, is there 
something that we are missing, is there something too much or--
--
    Mr. Newhouse. So you----
    Mr. Reilly.--anything like that.
    Mr. Newhouse.--saying it needs to be relevant information, 
relevant questions?
    Mr. Reilly. Yes. Yes.
    Mr. Newhouse. Would you say questions about furniture and 
office supplies and license taxes, health expenses, how much 
was spent on entertainment, generally, are those relevant 
questions?
    Mr. Reilly. Well, again, especially dealing with 
agriculture, which is kind of unique, is because of the high 
percentage of farm operations that are family farms. Ninety-
seven percent of all of our farms meet that criteria. And there 
is a difference, and there is a thing to look at the whole 
economic profile of the operation which doesn't just stop at 
the farm operation. So there is a need to gather some 
information about the off-farm-related activities to get a 
complete overall----
    Mr. Newhouse. Well----
    Mr. Reilly.--economic well-being picture----
    Mr. Newhouse. I have----
    Mr. Reilly.--of our farms and----
    Mr. Newhouse. I have just a short amount of time left, if I 
could ask quickly. I apologize for this, but in e-mails we have 
gotten from OMB, they directed NASS to speak with the USDA 
General Counsel about the content of the survey and whether 
USDA had the authority to combine TOTAL and ARM surveys to make 
them mandatory. I want to know if you were aware of those 
concerns, and do you know if that consultation ever took place? 
And I apologize for leaving you very little time.
    Mr. Reilly. I am not sure specifically which concerns you 
are talking about, but in looking at our consultation with OGC, 
I am in constant communication with them about various aspects 
of our program. And we can get back with you on any type of 
what their opinion is or whatever. We have had discussions not 
only on this program but other aspects of the Census of 
Agriculture program and the mandatory reporting over the years, 
and have a very strong working relationship with them. And in 
going through the OMB approval process, we do provide answers 
and questions and documentation to the OMB examiner, sort of 
justifying our request and our authority to do that.
    Mr. Newhouse. So you are saying those consultations did 
occur?
    Mr. Reilly. Well, on this specific program, not 
necessarily, but I do consult with them all the time. And we 
did provide, and I have had recent conversations with them on 
other programs under the Census of Agriculture, and we did 
provide some of our documentations that we had from previous 
conversations to the OMB examiner. And we can get any 
clarification----
    Mr. Newhouse. Okay.
    Mr. Reilly.--for the record if you need it of what OGC--
because, again, every Census follow-on that we have conducted 
since the transfer at the Department of Agriculture has been 
conducted under the mandatory reporting authority.
    Mr. Newhouse. I have gone over my time, Mr. Chairman. I 
appreciate your leniency. Thank you.
    The Chairman [presiding.] It is freshman leniency, Mr. 
Newhouse. It won't happen in your next year. Thank you very 
much.
    The chair would like to recognize the Ranking Member, Ms. 
DelBene, for 5 minutes.
    Ms. DelBene. We all support other Washington State Members 
of the Committee, I just had a couple of extra questions, Mr. 
Reilly.
    We talk about voluntary and mandatory surveys, and so I 
wanted to know if you could explain for us the difference, why 
you decide to use one versus the other.
    Mr. Reilly. Well, first of all, when you talk about a 
decision process, essentially, with the Census of Agriculture 
program and the authority that we have had, all the special 
follow-ons that we have conducted as part of that program have 
been mandatory. Okay. So it is not like yes, no, or whatever, 
we have just conducted all of them as mandatory. And other than 
those programs, and knowing the important nature of what we are 
trying to get on those programs, on our Agricultural Estimates 
programs we have very little mandatory reporting on that side 
at all. So again, I look at this, and you look at the Census of 
Agriculture program and all the key related issues that it is 
trying then to subsequently measure are critical. With the 
response rates and the quality of the data to measure those 
sometimes are difficult to get to, so each one, starting with 
the 1999 AELOS and every special study that has been conducted 
under the Census of Agriculture authority has been mandatory 
reporting.
    Ms. DelBene. Can you give us more information on the types 
of responses you get, what the difference in responses you get 
between a mandatory and a voluntary----
    Mr. Reilly. Typically, we find that our response rate will 
probably increase and improve around 15 percent going from a 
voluntary to a mandatory program, about a 15 percent increase.
    Ms. DelBene. And how does that show itself in terms of the 
quality of the data that you get as a result?
    Mr. Reilly. In many times, it is absolutely critical, 
because when you look at the Census of Agriculture program, 
yes, we are looking at measuring things at a national level, 
but oftentimes you have to make sure we are putting out 
information on a sublevel, whether it be a state, or in some 
instances even below the state level. And that is where it 
becomes critical. If you look at response rates and making sure 
that certain issues are important in all states, it is 
difficult for some of the smaller states for us to collect 
certain data at a defensible statistical level without the use 
of that mandatory reporting.
    Ms. DelBene. Thank you. Mr. Chairman, I yield back. I 
appreciate your time.
    Ms. Davis. Thank you.
    The chair now recognizes the gentleman from Florida, Mr. 
Yoho, for 5 minutes.
    Mr. Yoho. Thank you, Mr. Chairman. Mr. Reilly, thank you 
for being here.
    And I am going to pick up where my colleagues from 
Washington, in Washington, left off. And I am not as refined as 
my colleague to the left.
    Where I come from--I am a large animal veterinarian, I 
practiced for 30 years, I have dealt with rural agriculture all 
of my life since I was about 15. Where I come from, people are 
angry about these surveys. They are intrusive. If I were to ask 
you how many children do you have?
    Mr. Reilly. I do not have any children.
    Mr. Yoho. Do you travel?
    Mr. Reilly. Yes, I do travel.
    Mr. Yoho. Where do you like to travel?
    Mr. Reilly. State of Washington----
    Mr. Yoho. And if I kept going----
    Mr. Reilly.--because that is where my family is from.
    Mr. Yoho. And if I keep going and say how much do you spend 
on this, and what is in your annuity and things like that, you 
might get to a point where you say it is none of your darned 
business. That is what I run into.
    And, these questions, I find them offensive, and especially 
when it is mandatory. It was brought up by Austin Scott about 
the Fourth Amendment, the right of the people to secure their 
persons, their house, their papers and effects against 
unreasonable search and seizures, shall not be violated and no 
warrants shall be issued but upon probable cause supported by 
an oath. I think we have overstepped the boundaries of this. 
And this is why, at this point of time in our country, 
especially where I come from, it is a very conservative 
district, there is a lot of mistrust of government. And this is 
an intrusive program. And I understand the importance of having 
the information, to get that information to make the decisions 
that we have to up here, but there is a better way to do that, 
and I would encourage you highly to do that. If not, Congress 
will act, and you will have help from your own government.
    What I wanted to ask you is, OMB--and if you could raise 
Slide 5 please.
    Mr. Yoho. OMB raised concerns about making the TOTAL survey 
mandatory. This will be Slide 5. In the document on the screen 
now, an OMB employee advises, he is referring to the OMB 
General Counsel, believes that only the survey content named in 
the title is designated as mandatory. Were you aware of these 
concerns raised by OMB?
    Mr. Reilly. Well, I am not aware of these specific 
concerns, but in getting back to our OMB approval process, as 
you know, examiners come, examiners go, different things, and 
oftentimes people are not aware of all the rules and 
parameters. I have had conversations over the course of the 
year and my time, trying to explain to people what the 
authority provided to us under the Census of Agriculture Act 
was. And in looking at this, I can't comment specifically on 
this, but we have been through this. We have been through this 
several cycles. And I have talked with staff and I have a good 
relationship with OGC on many of the issues, but as far as my 
staff goes, we go back to what we have done before, how we have 
justified things before, and apparently whatever information 
that we provided back to OMB met their satisfaction because 
they did end up approving----
    Mr. Yoho. Well, let me go on to my next question then. OMB 
staff then directed NASS staff to consult with the USDA General 
Counsel to determine whether the Secretary had the 
discretionary authority to mandate TOTAL as part of the Census 
for Agriculture program. Did any such consultation occur in 
your knowledge?
    Mr. Reilly. Well, I am not aware--well, first of all, I am 
not aware of this request, and any conversation I am not----
    Mr. Yoho. Okay, so----
    Mr. Reilly.--aware of that, but----
    Mr. Yoho. But--okay.
    Mr. Reilly.--in dealings with the General Counsel, we just 
recently instituted a new Census of Agriculture report, current 
industrial reports, requested under Census of Agriculture 
authority, and I have had complete discussions with the General 
Counsel on that and those programs are being conducted----
    Mr. Yoho. Well, let me ask you this. Do you think the NASS 
staff has the right to ask those questions, to mandate TOTAL as 
part of the Census for Agriculture program? Is that a yes or a 
no? I mean I am just kind of looking for a yes or no.
    Mr. Reilly. Again, going back, all the programs that we 
have conducted on the Census of Agriculture and the special 
studies since the transfer over have been conducted under 
mandatory authority.
    Mr. Yoho. All right. So the question is, do they have the 
discretionary authority to do that? You are saying yes?
    Mr. Reilly. Well, I would say that, yes, all of them have 
been----
    Mr. Yoho. Okay.
    Mr. Reilly.--conducted that way.
    Mr. Yoho. I have a follow-up question then. Why were there 
no related documents produced to the Committee then when 
requested? And if you can't answer that, I would appreciate a 
written answer for that for this Committee so that we can look 
at that more in-depth.
    And, Mr. Chairman, I believe I have run out of time. And I 
am going to ask you to submit that. The question is, the OMB 
staff directed NASS staff to consult with the USDA General 
Counsel to determine whether the Secretary has the 
discretionary authority to mandate TOTAL, and did any such 
consultation occur? You said yes, you thought. If yes, why were 
then no related documents produced to the Committee that was 
requested?
    And I yield back. Thank you, sir. I will make sure you have 
them.
    Mr. Reilly. If I can make one clarification. I did not have 
a discussion with OGC about the TOTAL survey, I had discussions 
with them about other Census of Agriculture special studies, 
and more recently, the current industrial reports. So those are 
the conversations that I had. And if you need something from 
OGC that would document the authority to conduct the TOTAL, we 
can provide----
    Mr. Yoho. I will write this down. I am out of time, and I 
want to respect the Chairman's time and everybody else's. And I 
will get you those questions. Thank you.
    The Chairman. The gentleman's time has expired.
    Mr. Reilly, thank you again. I have a few more questions.
    Following up a little bit on what Mr. Yoho started, several 
of the documents show various employees being instructed not to 
reveal ERS' involvement in the TOTAL survey. Let's put up Slide 
7.
    The Chairman. This is an example of this. This employee is 
under the impression that you do not want third parties to know 
about ERS' involvement and thereby create the appearance that 
NASS is conducting a Census for another agency. How do you 
explain this?
    Mr. Reilly. Well, sir, I am not familiar with this specific 
e-mail. And, again, I will go back to the process and the plan 
that we put in place for this. When we looked at doing the two 
different surveys, we identified there was much overlap between 
the two, and we attempted to try to do something that was 
efficient and reduce respondent burden. So essentially, we 
eliminated or suspended ARMS III for the particular year and 
incorporated some of those questions and some of the content 
into the TOTAL survey. And what we didn't want to do is that, 
when we were talking about this to anyone, is that we were not 
conducting ARMS this year. We wanted to make sure all of our 
materials and stuff like that reflected that we were doing a 
land ownership survey.
    The Chairman. Well, for the record, I would like to note 
that this information was submitted to you on Monday. So at 
some point in time, I would like to make sure that you have had 
a chance to see that before you arrived here, which is why we 
gave it to you----
    Mr. Reilly. Okay.
    The Chairman.--and I would hope we could get more of a 
response.
    And one last question on this issue. Did you direct 
employees to hide ERS' involvement in TOTAL?
    Mr. Reilly. I never directed or had any communication about 
hiding anything. In fact, I believe, and again, in my opening 
statement we, right from the beginning from our explanatory 
notes through the Federal Register process, talked about the 
collaboration with ERS on the program. So we never hid anything 
about the involvement or whatever. We were open and transparent 
right from the beginning.
    The Chairman. Well, thank you. I wanted to follow up on Mr. 
Yoho, since he started that line of questioning, and then go 
back now to something that was mentioned earlier by many of my 
colleagues and me about the mandatory nature of TOTAL.
    Can we put Slide 3 up please?
    The Chairman. This e-mail from NASS' OMB liaison states, 
``Joe said we have the approval to treat this as a mandatory 
survey under the discretionary rights of the Secretary.'' And 
you just mentioned the mandatory issue in regards to OGC. Who 
granted that approval?
    Mr. Reilly. Well, I am not familiar with the particular e-
mail, but again, in our process of submitting everything for 
OMB in our Federal Register notice and all the OMB approval 
process, we were right from the beginning with our intention to 
conduct this as mandatory reporting. So in our first Federal 
Register notice and in our second Federal Register notice, it 
was the intention in there that we were doing this as a 
mandatory reporting. And then, in essence, once we received OMB 
approval, then we proceed with implementing the program.
    The Chairman. Well, Mr. Reilly, again, this information was 
in the report that was submitted by your employees to us. I 
find it disheartening that we can't have a conversation here on 
information that your agency provided to us and get questions 
answered.
    Do you agree that the--well, you know what, I am going to 
skip that question.
    Mr. Thompson, do you have any more questions? All right, I 
will go into our closing statements.
    Mr. Reilly, thank you. I think all of us here on both 
sides, we understand the value of the Census of Agriculture 
survey. We truly do. Some of the responses that you have given 
today frustrate us to the point that maybe we will have another 
hearing on this. You mentioned the 1999 survey being the basis 
of the mandatory TOTAL survey. Well, let me for the record, and 
I will submit the 1999 survey for the record and also the TOTAL 
survey, you already know there is a major difference in what is 
being asked on the 1999 survey, and many of the questions that 
have been deemed intrusive on the TOTAL survey.
    [The information referred to is located on p. 58, and p. 
73.] *
---------------------------------------------------------------------------
    * Editor's note: The 1999 AELOS survey and the ARMS III survey are 
Attachments 1 and 2 of the House Committee on Agriculture staff report, 
Oversight of USDA's Use of the Census of Agriculture Authority To 
Acquire Farmer's Personal Financial Information.
---------------------------------------------------------------------------
    The Chairman. Our farmers have been frustrated by this new 
mandatory survey. They have been frustrated by the questions 
that have been asked. I appreciate your responses regarding 
dental insurance, health insurance questions, but I still don't 
see the need to ask that in an agricultural survey. That is 
something other surveys within the Federal Government ask. My 
colleague, Mr. Scott from Georgia, brought up the issue of 
spending and even charitable contributions. Well, the IRS gets 
that information from every American if they itemize, and if 
they don't, why does the Census of Agriculture survey, why does 
TOTAL have to ask that information? I started today by asking 
you about if you are a risk-taker. By your own response, Mr. 
Reilly, you couldn't answer that question accurately. And how 
can we expect our farmers who don't understand the survey, who 
don't know the background of the survey, who don't know what 
that survey is going to be used for, how can you expect them to 
answer that question?
    I hope you can see today why we are frustrated. I hope you 
can see today why we expect you and the USDA to go back and 
rework something like this. Let's use some common-sense. And I 
would hope that what we take away from here is an opportunity 
to continue to work together; because we do truly value the 
statistical analysis that this survey can give, and I am 
personally afraid that the response rate is going to continue 
to go down when you add questions that are seemingly absurd to 
many of us.
    So with that, I want to say thank you again. Thank you to 
your staff. And I appreciate the opportunity to be here with 
you, and I look forward to working with you in the future.
    And now I have to go through my usual adjournment speech. 
Under the rules of the Committee, the record of today's hearing 
will remain open for 10 calendar days to receive additional 
material and supplementary written responses from the witness 
to any questions posed by a Member.
    This Subcommittee on Biotechnology, Horticulture, and 
Research hearing is now adjourned.
    [Whereupon, at 3:55 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
  Submitted Report by Hon. Rodney Davis, a Representative in Congress 
                             from Illinois
                        committee on agriculture
                      k. michael conaway, chairman
                      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                      

Oversight of USDA's Use of the Census of Agriculture Authority To 
        Acquire Farmer's Personal Financial Information
Staff Report Prepared for the House Committee on Agriculture, U.S. 
        House of Representatives, 114th Congress
November 30, 2015
I. Executive Summary
    In January 2015, the Committee, both Majority and Minority, were 
contacted by farmers and ranchers, also referred to as producers or 
operators, concerned that the U.S. Department of Agriculture's (USDA) 
National Agricultural Statistics Service (NASS) improperly used the 
Census of Agriculture authority to conduct a survey entitled Tenure, 
Ownership, and Transition of Agricultural Land (TOTAL). By invoking the 
Census authority, NASS rendered the TOTAL survey compulsory. Farmers 
and ranchers across America were enraged when they realized the broadly 
scoped Agricultural Resource Management Survey (ARMS III) was now being 
mandated by USDA.
    The farmers and ranchers in touch with the House Agriculture 
Committee, having no insight into the behind-the-scenes planning and 
execution of the survey, were confounded by the duplicative, intrusive, 
and over-broad nature of TOTAL. The TOTAL survey inquired about all 
aspects of an operator's personal financial portfolio as well as all 
aspects of farm related income and expenses. Examples of the intrusive 
nature include the following queries: ``income from private pensions,'' 
spending on ``health and/or dental insurance costs,'' and values of 
``financial assets held in non-retirement accounts'' such savings bonds 
and mutual funds. These questions on the TOTAL survey were required to 
be answered. Otherwise, the operator could face a monetary penalty. In 
order to understand all the facts surrounding this novel approach to 
ARMS III, on February 2, 2015, Chairman Conaway and Ranking Member 
Peterson sent a letter to Secretary Vilsack requesting information, 
documents, and a staff-level briefing related to the TOTAL survey.
    On February 5, 2015, and again on March 27, 2015, NASS officials 
briefed House Agriculture Committee staff regarding the TOTAL survey. 
Both briefings were fraught with contradictions and confusion. At one 
point, during the February briefing, NASS staff stated that the TOTAL 
survey had been conducted ``for years--since 1998.'' Then, when 
Committee staff challenged this statement, it was retracted. Based on 
the confused nature of the February briefing, Committee staff 
determined it was necessary to continue to press USDA for documents 
related to TOTAL and NASS's authority to conduct TOTAL as a mandatory 
Census of Agriculture follow-on survey.
    For 7 months, USDA produced approximately 49,000 documents, which 
Committee staff reviewed. On September 9, 2015, Chairman Conaway sent 
Secretary Vilsack a letter requesting transcribed testimony of two NASS 
employees, who have significant factual knowledge of the planning and 
execution of the TOTAL survey. USDA refused this request. Instead, USDA 
offered another briefing. Because USDA refused to produce witnesses to 
clarify certain documents and elaborate on the circumstances 
surrounding the TOTAL survey, the Committee is left with outstanding 
questions. These gaps in the record are addressed in Section III of 
this report.
    Over the course of the Committee's oversight of the TOTAL survey, 
it became clear that certain anomalies occurred during the planning and 
approval phase of the survey. The pace, timing, and fact that TOTAL 
resembled the ARMS III survey--a survey traditionally conducted as an 
optional survey to inform research by the Economic Research Service 
(ERS)--was driven by department-level leadership. The electronic mail 
messages (e-mails) produced to the Committee show USDA's involvement in 
the process, which raises questions about the political motivations for 
the compulsory nature of the TOTAL survey. Administrator Reilly, the 
official in charge of NASS and other NASS staff appear to have been 
receiving input from USDA-main headquarters. It is unclear who at the 
department-level was involved in planning the TOTAL survey. Either USDA 
failed to produce documents and communications to answer this question 
or the directions were verbal. Without having the opportunity to 
question appropriate witnesses and USDA officials, the Committee's 
oversight efforts are impaired. This also shields facts from Congress 
and American agricultural producers. However, one thing is clear: the 
TOTAL survey that was sent to operators is essentially a mandatory 
version of the ARMS III survey. The complete rationale for mandating 
TOTAL is, at this point, opaque to the Committee.
    Beyond the novel approach of mandating TOTAL, producers and 
ranchers from around the U.S. raised concerns about the survey content 
and the fact that it was extremely burdensome to complete. The TOTAL 
survey was broad and in some instances duplicative. While the Census of 
Agriculture is an important tool used by economists; state, local, and 
Federal policy-makers; financial analysts; and farmers themselves, it 
cannot be overly burdensome requiring farmers fill out unnecessary 
paperwork rather than focusing on their land. The House Agriculture 
Committee understood the importance of the Census as well as the 
balance that must be struck.
    In the report accompanying the Census of Agriculture Act of 1997, 
the Committee wrote that ``[p]roducers have serious time constraints 
and should only have to answer questionnaires that are concise, easily 
readable and understandable, and relevant to today's agricultural 
operations.'' \1\ Historically, the Census mandated reporting 
information focused on farm-related data such as crops planted, yields, 
crop insurance, and on-farm finances. With regard to the TOTAL survey, 
NASS engaged in a series of actions to convince the Office of 
Management and Budget (OMB) to sign off on making TOTAL mandatory for 
all recipients to complete. These actions allowed them to compel--
through the threat of a monetary penalty--the collection of a vast 
amount on-farm and off-farm data from farmers, ranchers, and land 
owners. This report calls into question the propriety of invoking the 
Census authority to require American farmers and ranchers to fill out a 
burdensome questionnaire probing not only their farm-related finances, 
but also their off-farm financial information.
---------------------------------------------------------------------------
    \1\ H. Rep. No. 105-296 (Oct. 2, 1997).
---------------------------------------------------------------------------
    OMB plays a role in approving mandatory information collections 
across government. Notably, documents produced to the Committee 
demonstrate that OMB raised questions about NASS's authority to conduct 
TOTAL as a mandatory Census follow-on. The OMB General Counsel provided 
an informal opinion stating that NASS could not conduct the TOTAL 
survey under its mandatory Census authority. The OMB General Counsel 
stated that only survey content enumerated in Title 7 could be 
mandatory. NASS, in contrast, argued the Secretary of Agriculture had 
the discretion to determine survey content.
    OMB Staff advised NASS staff to seek guidance from the USDA General 
Counsel on the question of the Secretary's discretionary authority. 
NASS declined to follow OMB's advice. The record before the Committee 
is void of any legal analysis on the subject of whether it is 
permissible to conduct the TOTAL survey as a mandatory Census follow-on 
survey. In e-mails provided to the Committee, USDA contends it has 
broad authority to conduct smaller surveys containing material beyond 
what is enumerated in the Census of Agriculture statute. In responding 
to the TOTAL survey, operators are essentially providing all financial 
data related to farm and land operations as well as personal household 
financial data. USDA, by taking this new approach, has delved into data 
ranging from how much a rancher's family spends on everything from 
health insurance to dental checkups to how much they spend on 
vacations. The House Agriculture Committee staff disagrees with this 
approach.
II. Background
Relevant Agencies
    The Census of Agriculture is conducted every 5 years pursuant to 
the Census of Agriculture Act of 1997.\2\ NASS is the USDA agency 
delegated the authority to conduct the Census. According to the NASS 
website, the agency ``conducts hundreds of surveys every year and 
prepares reports covering virtually every aspect of U.S. agriculture.'' 
\3\ NASS employs approximately 435 staff members in Washington, D.C. 
and 650 staff in field offices across the U.S. Its headquarters is in 
Washington, D.C. with 12 regional field offices serving the nation. 
NASS's annual budget is $172 million in discretionary dollars. The 
Administrator of NASS is Joseph T. Reilly. Reilly has served at NASS 
since 1997 and prior to joining NASS, he served at the Department of 
Commerce's Bureau of Census for 21 years.
---------------------------------------------------------------------------
    \2\ 7 U.S.C.  2204g states, in pertinent part:

      (a) Census of agriculture required

        (1) In general

          In 1998 and every fifth year thereafter, the Secretary of 
Agriculture shall take a Census
      of Agriculture.

        (2) Inclusion of specialty crops

          Effective beginning with the Census of Agriculture required 
to be conducted in 2008,
      the Secretary shall conduct as part of each Census of Agriculture 
a Census of specialty
      crops (as that term is defined in section 3 of the Specialty 
Crops Competitiveness Act of
      2004 (7 U.S.C. 1621 note; Public Law 108-465)).

        (b) Methods

          In connection with the Census, the Secretary may conduct any 
survey or other informa-
      tion collection, and employ any sampling or other statistical 
method, that the Secretary
      determines is appropriate.

        (c) Year of information

          The information collected in each Census taken under this 
section shall relate to the
      year immediately preceding the year in which the Census is taken.

    Frequently Asked Questions, About the Census, http://
www.agcensus.usda.gov/Help/FAQs/General_FAQs/ (last visited Oct. 13, 
2015).
    The Paperwork Reduction Act ``requires agencies to submit approval 
requests for information collections to [the Office of Mgmt. & 
Budget's] Office of Information & Regulatory Affairs [OIRA]. OIRA then 
evaluates them under the standards of the Paperwork Reduction Act, 
approving them if they comply and assigning a control number.'' See 
https://www.whitehouse.gov/omb/OIRA_QsandAs/. The Census of Agriculture 
and its follow-on surveys must be vetted in advance by officials at 
OIRA.
    \3\ http://www.nass.usda.gov/About_NASS/ (last visited Oct. 21, 
2015).
---------------------------------------------------------------------------
    ERS is the USDA agency responsible for producing analyses of 
economic and social science information on agriculture, rural 
development, food, commodity markets, and the environment. It compiles 
and disseminates data concerning USDA programs and policies to various 
stakeholders. Presently, ERS has no authority related to the Census of 
Agriculture. Since 2011, ERS has been led by Dr. Mary Bohman.
    Both NASS and ERS are housed within the Research, Education, and 
Economics mission area of USDA. These agencies are overseen by Under 
Secretary of Agriculture Dr. Catherine Woteki.
The Census of Agriculture
    According to the NASS's website:

          [T]he Census of Agriculture is the leading source of facts 
        and figures about American agriculture. Conducted every 5 
        years, the Census provides a detailed picture of U.S. farms and 
        ranches and the people who operate them. It is the only source 
        of uniform, comprehensive agricultural data for every state and 
        county in the United States. Participation by every farmer and 
        rancher, regardless of the size or type of operation, is 
        vitally important. By responding to the Census, producers are 
        helping themselves, their communities and all of U.S. 
        agriculture.\4\
---------------------------------------------------------------------------
    \4\ See http://www.agcensus.usda.gov/About_the_Census/ (last 
visited Sept. 11, 2015).

    NASS conducted the most recent Census of Agriculture in 2012. 
Initially, the U.S. Department of Commerce's Bureau of Census (BOC) 
conducted the Census every 10 years.\5\ From 1920 through 1992, the BOC 
conducted the Census every 5 years.\6\ In 1997, the House and Senate 
passed the Census of Agriculture Act of 1997 to transfer the authority 
for conducting the Census from the BOC to USDA.\7\ On November 21, 
1997, President Clinton signed the Act (P.L. 105-113), which is now 
part of Title 7 of the United States Code.
---------------------------------------------------------------------------
    \5\ S. Rep. No. 105-141 (Nov. 7, 1997); H. Rep. No. 105-296 (Oct. 
2, 1997).
    \6\ Id.; noting that between 1978 and 1982, the Census of 
Agriculture was conducted every 4 years so as to align it with other 
economic surveys.
    \7\ Id.
---------------------------------------------------------------------------
    Data collected through the Census of Agriculture is used by 
numerous entities in both the public and private sectors. Farmers, farm 
product manufacturers, and the financial industry are among private 
sector consumers of the data. Additionally, state, local, and Federal 
policy-makers use the data to make decisions that will affect 
agriculture.\8\
---------------------------------------------------------------------------
    \8\ Frequently Asked Questions, About the Census, http://
www.agcensus.usda.gov/Help/FAQs/General_FAQs/ (last visited Oct. 13, 
2015).
---------------------------------------------------------------------------
    In addition to the Census, NASS also conducts follow-on surveys. 
Follow-on surveys are authorized in order to collect detailed 
information about specific agriculture related topics. Past follow-on 
surveys have included the Census of Horticulture, Organic Survey, and 
the On-Farm Energy Production Survey, among others. With proper notice 
and opportunity to comment,\9\ the follow-on surveys can be mandated 
under the Census of Agriculture authority.
---------------------------------------------------------------------------
    \9\ The Paperwork Reduction Act ``requires agencies to submit 
approval requests for information collections to [the Office of Mgmt. & 
Budget's] Office of Information & Regulatory Affairs [OIRA]. OIRA then 
evaluates them under the standards of the Paperwork Reduction Act, 
approving them if they comply and assigning a control number.'' See 
https://www.whitehouse.gov/omb/OIRA_QsandAs/. The Census of Agriculture 
and its follow-on surveys must be vetted in advance by officials at 
OIRA.
---------------------------------------------------------------------------
    As mentioned above, participation in the Census of Agriculture and 
many of its follow-on surveys is required by law. Producers failing to 
answer the Census of Agriculture questions may be fined up to $100.
    NASS' funding varies from year to year and it is difficult to parse 
out Census funding from the numerous follow-on surveys NASS conducts. 
The appropriation is at its largest sum the year after a Census year 
which can be attributed to the fact that the survey is a look back at 
the data from the previous year. In the table below, the highlighted 
years are the peak years--those in which the survey is released.

------------------------------------------------------------------------
                 FY                            Census Funding *
------------------------------------------------------------------------
         2016 (request)                               $45.747
                   2015                               $47.842
                   2014                               $44.545
                   2013                             8$58.0290
                   2012                               $41.639
                   2011                               $33.073
                   2010                               $37.908
                   2009                               $37.265
                   2008                             8$51.9850
                   2007                               $32.644
                   2006                               $28.824
------------------------------------------------------------------------
* Dollar figures are in millions.

The Agricultural Economics and Land Ownership Survey (AELOS)
    The Agricultural Economics and Land Ownership Survey (AELOS) was a 
survey conducted to gather information related to ``non-farming 
landlord contributions to production agriculture.'' \10\ The AELOS 
survey ``provided estimates of farm and ranch land acquisition and 
ownership, capitalization and debt, operating inputs and costs, and 
operator-landlord relationships.'' \11\ It provided a more 
comprehensive picture of the financial conditions in agriculture. The 
inaugural AELOS survey was conducted by NASS in 1999. Although USDA 
stated that the AELOS survey has ``been completed about every 10 years 
as a follow-on survey to the Census of Agriculture,'' \12\ documents 
show the sole AELOS survey was conducted in 1999. AELOS was an updated 
version of similar surveys which were conducted in 1959, 1964, 1970, 
1979, and 1988.\13\ NASS had planned to conduct an AELOS survey in 
2011, but canceled it due to budget constraints.\14\ Between 1999 and 
2000, NASS received $2 million to fund the AELOS survey.\15\
---------------------------------------------------------------------------
    \10\ [Redacted], Chief, Census Planning Branch, U.S. Dep't of 
Agric., National Agric. Statistics Serv., Tenure, Ownership, and 
Transition of Agricultural Land [TOTAL] Survey PowerPoint Presentation 
[USDA-CENSUS-0025401]; see also Letter from Hon. Todd Batta, Assistant 
Sec'y, Office of Cong. Affairs, U.S. Dep't of Agric. to Hon. K. Michael 
Conaway, Chairman, H. Agric. Comm., Mar. 13, 2015 [hereinafter Batta 
Letter, Mar. 2015].
    \11\ [USDA-CENSUS-0025401].
    \12\ Batta Letter, Mar. 2015.
    \13\ 1997 Census of Agric.: History, AC97-SU-4, Vol. 2, Subject 
Series, Part 4, http://www.agcensus.usda.gov/Publications/1997/History/
history1997.pdf (last visited Oct. 8, 2015).
    \14\ Batta Letter, Mar. 2015.
    \15\ U.S. Dep't of Agric. Budget & Explanatory Notes, (available at 
http://www.obpa.usda.
gov/).
---------------------------------------------------------------------------
    The 1999 version of AELOS was conducted as a mandatory Census of 
Agriculture follow-on survey.\16\ A copy of the 1999 AELOS survey is 
provided as an attachment [Attachment 1] to this report.
---------------------------------------------------------------------------
    \16\ [USDA-CENSUS-0025401]; see also Letter from Hon. Todd Batta, 
Assistant Sec'y, Office of Cong. Affairs, U.S. Dep't of Agric. to Hon. 
K. Michael Conaway, Chairman, H. Agric. Comm., Mar. 13, 2015 
[hereinafter Batta Letter, Mar. 2015].
---------------------------------------------------------------------------
The Agricultural Resource Management Survey (ARMS)
    According to ERS' website, the ARMS survey is USDA's ``primary 
source of information on the financial condition, production practices, 
and resource use of America's farm businesses and the economic well-
being of America's farm households.'' \17\ ARMS has three phases. The 
third phase, ARMS III, which is relevant to this oversight initiative, 
contains broad, probing questions about ``whole farm finance 
information'' and ``operator characteristics.'' \18\ For at least the 
past 10 years, ARMS has been conducted by ERS and NASS, jointly.\19\
---------------------------------------------------------------------------
    \17\ Overview, What Is the Agricultural Resource Management Survey 
(ARMS)?, http://www.ers.usda.gov/data-products/arms-farm-financial-and-
crop-production-practices.aspx (last visited Oct. 7, 2015) [hereinafter 
ERS webpage].
    \18\ USDA-CENSUS-0003565.
    \19\ ERS webpage; 1997 Census of Agric.: History, AC97-SU-4, Vol. 
2, Subject Series, Part 4, http://www.agcensus.usda.gov/Publications/
1997/History/history1997.pdf (last visited Oct. 8, 2015).
---------------------------------------------------------------------------
    ARMS is an annual survey which provides data used by economists for 
various sorts of research, by producers in decision-making, and policy-
makers.\20\ ARMS III data, in particular, is utilized by economists, 
financial analysts, and producers, among others. Data obtained through 
the ARMS survey is available on ERS' website dating back to 1996.\21\ 
Funding for the ARMS survey comes from funds appropriated for ERS and 
has been approximately $19 million annually since Fiscal Year 2006.
---------------------------------------------------------------------------
    \20\ ERS webpage.
    \21\ ERS webpage.
---------------------------------------------------------------------------
    It is important to note that historically the ARMS survey has not 
been mandatory for farm operators and has not been a part of the Census 
of Agriculture program. A copy of the ARMS III survey form is attached 
[Attachment 2] to this report.
The Tenure, Ownership and Transition of Agricultural Land Survey 
        (TOTAL)
    In March 2012, the Advisory Committee on Agriculture Statistics 
(ACAS) recommended that NASS conduct a land tenure survey. Based on 
this recommendation, NASS decided to conduct the TOTAL survey for the 
first time.\22\ Specifically, the ACAS report stated: ``[t]he Advisory 
Committee recommends that NASS perform a Land Tenure survey as early as 
possible but no later than 2015. This should be the highest priority 
`optional' [Census of Agriculture] follow-on.'' \23\ In its 
recommendation, the ACAS was not specific with regard to what questions 
should be included or excluded on a land tenure survey.
---------------------------------------------------------------------------
    \22\ Batta Letter, Mar. 2015.
    \23\ Batta Letter, Mar. 2015; http://www.nass.usda.gov/About_NASS/
Advisory_Committee_on_
Agriculture_Statistics/ACAS_Nov_2013_Meeting_Executive_Summary.pdf 
(last visited Sept. 14, 2015).
---------------------------------------------------------------------------
    NASS and ERS, at some point, decided to combine ARMS III and AELOS 
to establish TOTAL, a Census follow-on that probed the agricultural and 
personal finances of farmers, ranchers, and land owners. The new survey 
was described by a NASS employee as ``[a]n integrated survey of farm 
finance and land ownership from all agricultural land owners.'' \24\
---------------------------------------------------------------------------
    \24\ [Redacted], Workshop Overview: Why We Are Here PowerPoint 
Presentation, U.S. Dep't of Agric., [USDA-CENSUS-0004451].
---------------------------------------------------------------------------
    NASS plans to conduct the TOTAL survey every 10 years to assist 
policy-makers, economists, financial analysts, and others who use the 
data.\25\ The TOTAL survey received $4.5 million in funding--$2.5 
million from NASS in Fiscal Year 2015 and $2.0 million from ERS in 
Fiscal Year 2014.\26\
---------------------------------------------------------------------------
    \25\ E-mail from NASS Staff to NASS Staff, Re: TOTAL Supporting 
Statements, Oct. 20, 2014 [USDA-CENSUS-0029795].
    \26\ U.S. Dep't of Agriculture, Nat'l Agric. Statistics Serv., 
Tenure, Ownership, and Transition of Agric. Land (TOTAL) Survey, Mar. 
19, 2014 [USDA-CENSUS-0002042].
---------------------------------------------------------------------------
    On December 26, 2014, NASS sent the target populations the initial 
mailing related to TOTAL.\27\ A second mailing was sent on January 27, 
2015, and telephonic and field follow-up took place between February 
17, 2015 and April 2015.\28\ NASS published preliminary TOTAL results 
on August 31, 2015.\29\ Complete 2014 TOTAL results were released 
October 5, 2015.\30\
---------------------------------------------------------------------------
    \27\ TOTAL Data Collection PowerPoint Slide [USDA-CENSUS-0004175]; 
see also Memorandum from [Redacted], Chief, Census Planning Branch, 
Nat'l Agric. Statistics Serv., Oct. 15, 2014 [USDA-CENSUS-0025932].
    \28\ TOTAL Data Collection PowerPoint Slide [USDA-CENSUS-0004175].
    \29\ U.S. Dep't of Agric., Nat'l Agric. Statistics Serv., New 
Release available at http://www.agcensus.usda.gov/Newsroom/2015/
08_31_2015.php (last visited Sept. 15, 2015.).
    \30\ Press Release, Most of the U.S. Rented Farmland is Owned by 
Non-Farmers, available at http://www.agcensus.usda.gov/Newsroom/2015/
08_31_2015.php (Oct. 5, 2015).
---------------------------------------------------------------------------
Historical Relationship Between AELOS and ARMS III
    The 1999 version of AELOS was conducted as a mandatory Census of 
Agriculture follow-on survey.\31\ Management level coordination 
occurred with respect to AELOS and ARMS III. The coordination resulted 
in:
---------------------------------------------------------------------------
    \31\ [Redacted], Chief, Census Planning Branch, U.S. Dep't of 
Agric., National Agric. Statistics Serv., Tenure, Ownership, and 
Transition of Agricultural Land [TOTAL] Survey PowerPoint Presentation 
[USDA-CENSUS-0025401]; see also Batta Letter, Mar. 2015.

          Approximately \1/3\ of AELOS records were completed using 
        data from the 1999 ARMS Phase III. The goal was to have an ARMS 
        questionnaire no longer in length than in 1998. Hence, some 
        detail was sacrificed to make room for the needed AELOS 
        items.\32\
---------------------------------------------------------------------------
    \32\ 1997 Census of Agric., Volume 2, Part 4 ``History,'' at 159, 
(available at http://www.agcensus.usda.gov/Publications/1997/History/
history1997.pdf) (last visited Oct. 21, 2015).

In other words, NASS chose to rely on the non-mandatory ARMS III survey 
to gather some of the data needed for the mandatory AELOS. This allowed 
the agency to lessen the burden on producers and avoid redundancy, yet 
gather the necessary data without creating a super survey such as 
TOTAL.
Two Versions of TOTAL
    TOTAL was comprised of two versions--the operator or producer 
version and the landlord-only version.\33\ According to USDA documents, 
the operator version ``target[ed] farm and ranch operators in the 48 
contiguous states,'' whose agricultural product sales totaled at least 
$1,000 annually.\34\ The operator version is most similar to the 
previously optional ARMS III survey.
---------------------------------------------------------------------------
    \33\ Tenure, Ownership, and Transition of Agric. Land (TOTAL) 
Survey [USDA-CENSUS-0026258].
    \34\ [USDA-CENSUS-0026258].
---------------------------------------------------------------------------
    For the landlord-only version, NASS targeted land owners who rent 
their land, but do not engage in farming operations.\35\ The landlord-
only version of TOTAL is similar in content to previously mandatory 
AELOS survey.
---------------------------------------------------------------------------
    \35\ [USDA-CENSUS-0026258].
---------------------------------------------------------------------------
    The content of ARMS III and the operator-only version of TOTAL are 
almost identical. This fact is borne out in numerous NASS staff e-mail 
messages. At one point a NASS staff member points out the confusion 
created by calling the landlord only version of TOTAL by its former 
name, ARMS III. On December 8, 2014, NASS staff wrote:

          I am a little confused on our use of ARMS in this news 
        release. We continue to use ``ARMS'' internally to attempt to 
        lessen the confusion in the TOTAL--Landlord Only survey and 
        ARMS III but as far as any external communications go I was 
        under the impression both surveys should be referred to as 
        TOTAL. ``ARMS III'' was suspended in the OMB docket for this 
        year and in its place is TOTAL. The ``ARMS'' form that the 
        respondent receives says TOTAL on it.\36\
---------------------------------------------------------------------------
    \36\ Electronic mail [E-mail] from NASS Staff A to a group of 
unnamed NASS Staff, Dec. 8, 2014 (emphasis added) [USDA-CENSUS-
0004371].

    To lessen NASS staff confusion, the TOTAL operator version was 
often referred to as ARMS III. As part of the same e-mail exchange 
referenced above, NASS staff wrote: ``It does say ARMS III on it off to 
the side [of the questionnaire form] but the actual title of the survey 
is TOTAL.'' \37\ Similarly, USDA, in correspondence with Chairman 
Conaway, referred to the TOTAL survey as being previously known as 
AELOS and ARMS.\38\
---------------------------------------------------------------------------
    \37\ Electronic mail [E-mail] from NASS Staff A to a group of 
unnamed NASS Staff, Dec. 8, 2014 [USDA-CENSUS-0004371].
    \38\ Batta Letter, Mar. 2015.
---------------------------------------------------------------------------
The TOTAL Survey Received Extensive Criticism from Recipients
    Documents reveal that in January 2015, many operators received both 
the ARMS III survey as well as the TOTAL survey. Farmers, ranchers, and 
operators objected to the government demanding that they respond to 
these questions not once in the ARMS III survey, but twice when they 
received the TOTAL survey. Section N of the TOTAL survey, operator 
version, required that all income, assets, debt, and spending be 
reported to USDA. Following is a snapshot of one of the most intrusive 
sections related to household financial information. 




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Farmers receiving the TOTAL survey were required to spend a great 
deal of time--time off the land they work--delving into their on-farm 
banking accounts as well as off-farm banking accounts. Numerous 
recipients had questions related to the survey. Agricultural producers 
e-mailed NASS's customer service address to ask questions and express 
consternation with the TOTAL survey. One respondent complained directly 
to USDA as is evidenced in the following e-mail in which the respondent 
requests assistance from NASS.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    One operator referred to the TOTAL survey as ``this extremely long 
form.'' \39\ Another operator requested a copy of the survey he or she 
filled out just the prior year. Specifically, the operator wrote:
---------------------------------------------------------------------------
    \39\ Anonymous landowner to NASS Staff, Re: Survey Completion, Dec. 
26, 2014 [USDA-CENSUS-0049069].

          Is our survey from last year available to us to use? There 
        will be no changes and I would like to refer to it. We had no 
        idea this was going to be an annual event.\40\
---------------------------------------------------------------------------
    \40\ Anonymous landowner to NASS Staff, Re: Previous years survey, 
Dec. 30, 2014 (emphasis added) [USDA-CENSUS-0049080].

The individual above likely received the ARMS III survey and the TOTAL 
survey less than a year apart which shows both the duplicative nature 
of TOTAL and the burden NASS placed on American agricultural producers.
    In another case, an incensed landowner took his frustration with 
the TOTAL survey out on the dairy and grain farmer renting his land. 
The dairy farmer was fearful of losing the lease. NASS staff had not 
foreseen that land owners would be inconvenienced by the survey.\41\ 
Below is a related e-mail showing NASS staff did not foresee landowners 
being perturbed by the length and breadth of the TOTAL survey.
---------------------------------------------------------------------------
    \41\ E-mail from NASS Staff to NASS Staff, Re: Landlords being 
surveyed, Aug. 27, 2014 [USDA-CENSUS-0020008].




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Under the Paperwork Reduction Act, the department or agency 
gathering information from U.S. citizens is required to reduce the 
burden by means such as employing information resources and 
technology.\42\ In addition, the Act requires the Director of OMB to 
``establish and oversee standards and guidelines by which agencies are 
to estimate the burden to comply with a proposed collection of 
information.'' \43\ These estimations must be reported OMB and provided 
on the survey form for recipients. In a nutshell, OMB must approve all 
mandatory information collections sent by the U.S. government. Even 
before NASS engaged OMB in the approval process, officials at USDA and 
NASS had decided to conduct the TOTAL survey as a mandatory Census of 
Agriculture follow-on survey.
---------------------------------------------------------------------------
    \42\ See Public Law 104-13.
    \43\ See Public Law 104-13.
---------------------------------------------------------------------------
Decision to Make TOTAL Mandatory
    The driving force behind the decision to mandate TOTAL is unclear, 
however based on the documents produced to the Committee by USDA, it is 
apparent that officials at the department-level were aware of the shift 
to mandatory.
    According to documents, the plan was to merge ARMS III and AELOS to 
create a hybrid survey and use the Census authority to require 
producers to answer the survey questionnaires. On January 24, 2014, the 
NASS Assistant Administrator sent an e-mail to two other NASS staff 
relaying a conversation she had with Administrator Reilly. Her e-mail, 
inserted below, shows that Administrator Reilly was receiving direction 
from USDA officials on how to proceed with the TOTAL survey. USDA was 
dictating the timeline, content, and future decisions as indicated by 
the clause ``sounds like we will know something maybe next week from 
USDA.'' The entire e-mail is pasted below.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The following e-mail shows that numerous NASS staff members were 
aware of USDA's involvement in creating the content for the TOTAL 
survey. In the e-mail below, NASS staff suggested checking to insure 
content requested by USDA was included in the TOTAL survey. These e-
mails demonstrate that USDA officials, perhaps within the Office of the 
Secretary, were dictating certain factors related to the TOTAL survey.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    It appears that USDA, NASS, and ERS conducted the TOTAL survey as 
mandatory to increase response rates.\44\ Yet, documents show USDA 
officials were influential in the execution of the survey--a fact which 
may indicate a political rational for mandating TOTAL. In March 2014, a 
memorandum was circulated throughout NASS that noted in order to 
mandate the TOTAL survey, NASS suspended the OMB docket for ARMS and 
``submitted [a new docket] so we can carry the mandatory reporting 
statement on the questionnaires.'' \45\
---------------------------------------------------------------------------
    \44\ U.S. Dep't of Agriculture, Nat'l Agric. Statistics Serv., 
Tenure, Ownership, and Transition of Agric. Land (TOTAL) Survey, Mar. 
19, 2014 [USDA-CENSUS-0005647].
    \45\ U.S. Dep't of Agriculture, Nat'l Agric. Statistics Serv., 
Tenure, Ownership, and Transition of Agric. Land (TOTAL) Survey, Mar. 
19, 2014 [USDA-CENSUS-0002042] (emphasis added).
---------------------------------------------------------------------------
    This March 26, 2014, e-mail confirms that Administrator Reilly, 
referred to below as Joe R., was carrying out the plan to rename ARMS 
III, TOTAL and make it mandatory. According to the e-mail, Reilly was 
not sure whose plan he was ratifying. Subordinate staff wrote: ``He 
seems to think that we were the ones pushing the dual mandatory and 
voluntary authority.'' On September 9, 2015, Chairman Conaway requested 
to interview two NASS staff members in order to fill gaps in the record 
such as this one. This request was not granted. Instead, USDA offered a 
third briefing. Without questioning NASS staff members, it is unclear 
who was proposing mandatory versus voluntary. 



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



The TOTAL Survey Contravenes Congress' Intent for the Census of 
        Agriculture
    Mandating a burdensome survey such as ARMS III by renaming it TOTAL 
was not what Congress likely intended when it enacted the Census of 
Agriculture Act of 1997. On the contrary, Congress was aware of the 
burden placed on producers when responding to Census questionnaires. In 
reporting the Act, Congress adopted House Report 105-296, which 
clarifies their intent. It states:

          The Committee recognizes the intrusive nature of a Census and 
        the need to obtain relevant data for policymakers. Producers 
        have serious time constraints and should only have to answer 
        questionnaires that are concise, easily readable and 
        understandable, and relevant to today's agricultural 
        operations. The Committee is sympathetic to concerns of time 
        spent filling out unnecessary paperwork.\46\
---------------------------------------------------------------------------
    \46\ H. Rep. No. 105-296, Purpose & Needs Section (1997).

Based on the documents produced to the Committee, it does not appear 
that USDA complied with spirit and intent of Congress when deciding to 
include the TOTAL survey as a mandatory, follow-on element of the 2012 
Census.
OMB Raises Questions Related to the Funding and Frequency of ARMS and 
        TOTAL
    In an e-mail dated October 30, 2014, OMB staff asked about the 
frequency of the TOTAL survey. E-mails from NASS staff, in response, 
state that TOTAL will be conducted every 10 years.\47\ The funding, 
according to an e-mail dated April 21, 2014, would come from 
``combining Congressional appropriations'' earmarked for the Census of 
Agriculture as well as ERS' funds. Combining funds from two agencies to 
conduct what NASS couched as a Census of Agriculture follow-on study 
raised a red flag for OMB.
---------------------------------------------------------------------------
    \47\  E-mail from NASS Staff to NASS Staff, Re: TOTAL Supporting 
Statements, Oct. 20, 2014 [USDA-CENSUS-0029795].
---------------------------------------------------------------------------
OMB's Role in Mandating TOTAL
    Under the Paperwork Reduction Act, NASS is required ``to submit 
approval requests for information collections to the Office of 
Management and Budget's (OMB), Office of Information & Regulatory 
Affairs (OIRA).'' \48\ The Census of Agriculture and its follow-on 
surveys must be vetted, in advance, by officials at OIRA. OIRA 
evaluates the materials related to the surveys vis-a-vis the standards 
of the Act, approving them if they comply and assigning a control 
number. In the summer of 2014, OMB staff engaged both in person as well 
as through e-mail regarding the mandatory nature of the TOTAL survey.
---------------------------------------------------------------------------
    \48\ See Pub. L. No. 104-13.
---------------------------------------------------------------------------
    Internal NASS documents show that NASS staff knew to portray TOTAL 
as one survey--its precursor being AELOS in order to achieve mandatory 
status. If OMB suspected TOTAL was too similar to ARMS III, then OMB 
may not sign off on mandatory status for TOTAL. When asked about the 
public relations strategy for TOTAL, and whether there would be a 
distinction for ARMS III and TOTAL landlord-only, NASS staff responded 
tersely stating: ``For OMB purposes it is one survey.'' \49\ In 
actuality, operators received a now-mandatory ARMS III survey and the 
landlords received a version similar to AELOS. The entire e-mail 
exchange is below.
---------------------------------------------------------------------------
    \49\ E-mail from NASS Staff to NASS Regional Field Office Staff, 
Re: ARMS III news release, Dec. 18, 2014 [USDA-CENSUS-0039968].


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    On March 21, 2014, NASS staff sent an e-mail to OMB staff, 
introducing the concept of the TOTAL survey.\50\ When NASS staff 
engaged OMB staff on TOTAL, NASS staff portrayed the TOTAL survey as 
similar to AELOS and therefore deserving of mandatory status. NASS 
staff explained that they would like to ``discuss some of the proposed 
details for integrating this new survey with the existing ARMS 
program.'' \51\ NASS staff also intimated that since the AELOS survey 
was mandatory, the TOTAL survey should be mandatory as well.\52\
---------------------------------------------------------------------------
    \50\ Electronic Mail [E-mail] from NASS Staff B to OMB Staff A, 
Meeting to Discuss the Combing [sic] of ARMS III survey with a new 
survey called TOTAL, Mar. 21, 2014 [USDA-CENSUS-0009324].
    \51\  E-mail from NASS Staff B to OMB Staff A, Meeting to Discuss 
the Combing [sic] of ARMS III survey with a new survey called TOTAL, 
Mar. 21, 2014 [USDA-CENSUS-0009324]. Id.
    \52\ Id.
---------------------------------------------------------------------------
    Then, when OMB staff learned in an e-mail that ERS and NASS 
appropriations would be combined to fund the TOTAL survey,\53\ OMB 
staff deemed it necessary to consult with their Office of General 
Counsel (OGC) to inquire as to whether NASS had the authority to 
mandate the TOTAL survey.\54\ The following e-mail exchange shows NASS 
staff describing the funding sources for TOTAL. In response, OMB staff 
informed NASS that OGC was reviewing NASS' statutory basis for 
mandating TOTAL.
---------------------------------------------------------------------------
    \53\ E-mail from NASS Staff B to OMB Staff, Re: Follow-up 
Information to TOTAL-ARMS meeting, Apr. 21, 2014 [USDA-CENSUS-0012904].
    \54\ E-mail Exchange between NASS Staff B and OMB Staff A, Apr. 21, 
2014 [USDA-CENSUS-0012904].



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

OMB Advises NASS on Whether It Is Permissible to Mandate TOTAL
    On May 8, 2014, the OMB OGC provided an informal legal opinion 
regarding whether the Census of Agriculture mandatory statutory 
authority was applicable in the case of the TOTAL survey. He found it 
was not. Below is the e-mail OMB staff sent NASS staff conveying the 
OMB OGC's opinion that only Census follow-on surveys with content laid 
out in the statute could be mandated. OMB staff also advised NASS staff 
to seek guidance from the USDA Office of General Counsel.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Documents show this was not the response NASS staff 
anticipated.\55\ Staff contemplated giving Administrator Reilly ``a 
heads up on this [development].'' \56\ On May 9, 2014, according to 
internal NASS e-mails, Administrator Reilly verbally assured staff that 
``we [NASS] have approval to treat this as a mandatory survey under the 
discretionary rights of the secretary [sic].'' \57\ NASS staff operated 
under the assumption that the Secretary of Agriculture has the 
discretionary authority to render TOTAL mandatory since AELOS had been 
mandatory.\58\
---------------------------------------------------------------------------
    \55\ E-mail Exchange between NASS Staff B and other NASS staff, May 
8, 2014 [USDA-CENSUS-0013920].
    \56\ E-mail Exchange between NASS Staff B and other NASS staff, May 
8, 2014 [USDA-CENSUS-0013920].
    \57\ E-mail Exchange between NASS Staff B and other NASS staff, May 
9, 2014 [USDA-CENSUS-0013937].
    \58\ E-mail from NASS Staff to OMB Staff, Apr. 21, 2014 [USDA-
CENSUS-0012904].
---------------------------------------------------------------------------
NASS Staff Continued to Ignore OMB's Guidance
    In the e-mail inserted above OMB suggested NASS seek the advice of 
USDA's General Counsel regarding the question of whether NASS had the 
authority to conduct TOTAL as a mandatory survey.
    On July 17, 2014, OMB Staff again reiterated their opinion that if 
funds other than NASS funds are used for a particular survey, then that 
survey cannot carry the mandatory Census authority (see e-mail 
below).\59\ Continuing on July 18, 2014, OMB staff and NASS staff had a 
significant amount of correspondence related to the matter of whether 
the TOTAL survey could carry the Census mandatory authority. During the 
same time frame, NASS staff and OMB staff debated whether the Organic 
Survey was eligible to be conducted as a mandatory Census follow-on.
---------------------------------------------------------------------------
    \59\ Email from OMB staff to NASS staff, Re: Submitted Request 
List, July 17, 2014 [USDA-CENSUS-0016781].



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ultimately, the Federal Register notice (FRN) submissions to OMB 
were amended to reflect the fact that these surveys would be conducted 
as mandatory Census follow-ons. Both the TOTAL Survey FRN and the 
Organics Survey FRN required amendment to notify the public of the 
compulsory nature of the surveys. This amendment is reflected in the e-
mail message above.
NASS Staff Admits They Did Not Seek Guidance from USDA's General 
        Counsel
    In the following document related to the Organic Survey, NASS staff 
admitted he was not aware of any legal analysis related to the question 
of which surveys are authorized to be mandatory.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In the e-mail above NASS staff argued that since the Organic Survey 
was partially funded by the Risk Management Administration of USDA, and 
conducted as a mandatory follow-on, then NASS could proceed with TOTAL 
as a mandatory follow-on survey.\60\
---------------------------------------------------------------------------
    \60\ E-mail from NASS Staff to OMB Staff, Re: Ag Surveys Program 
(201312-0535-001), July 18, 2014 [USDA-CENSUS-0017084].
---------------------------------------------------------------------------
    E-mails show that NASS staff internally debated the Secretary's 
authority to mandate the TOTAL survey. Instead of seeking guidance from 
the USDA Office of General Counsel, NASS staff decided, in a vacuum, 
that the Secretary had the discretion based on conversations with the 
NASS Administrator Reilly.\61\
---------------------------------------------------------------------------
    \61\ E-mail from NASS Staff to OMB Staff, Re: Ag Surveys Program 
(201312-0535-001) DRAFT note to [Redacted], July 18, 2014 [USDA-CENSUS-
0017040]; see also [USDA-CENSUS-0013937]; [USDA-CENSUS-0017058].
---------------------------------------------------------------------------
    On July 18, 2014, an internal NASS e-mail exchange shows that NASS 
staff did not believe it was necessary to clarify NASS' position with 
regard to mandating the TOTAL survey. In response to the question of 
whether Administrator Reilly needed to verify the agency's position on 
the question of authority, NASS staff wrote: ``I think if OMB wants 
clarification [on the mandatory authority] they can initiate that 
process.'' \62\
---------------------------------------------------------------------------
    \62\ E-mail from NASS Staff to NASS Staff, Re: Ag Surveys Program 
(201312-0535-001) DRAFT note to [Redacted], July 18, 2014 (emphasis 
added) [USDA-CENSUS-0017058].
---------------------------------------------------------------------------
    Also on July 18, 2014, OMB staff directed NASS staff to resubmit 
the FRN ``clearly stating that this collection would be mandatory and 
the authority under which NASS can make it mandatory.'' \63\
---------------------------------------------------------------------------
    \63\ E-mail from OMB Staff to NASS Staff, Re: Ag Surveys Program 
(201312-0535-001), July 18, 2014 [USDA-CENSUS-00171155].
---------------------------------------------------------------------------
NASS Staff Believed Re-Titling the ARMS III Survey Sufficed to Render 
        it Mandatory
    According to documents produced to the Committee, certain NASS 
staff believed the re-titling of the TOTAL survey allowed NASS to 
mandate the survey. On June 20, 2014, one NASS staff member wrote an e-
mail expressing the idea that a simple title change in the survey was 
sufficient to render the TOTAL survey mandatory. Specifically, he 
wrote: ``Unfortunately, we had to change the title [from ARMS III to 
TOTAL] to allow for the OMB statement of `required;' however I am going 
to continue to refer to this document and all other related items as 
2014 ARMS III.'' \64\ See below for the full e-mail text.
---------------------------------------------------------------------------
    \64\ E-mail from NASS Staff to NASS Staff, 6_20_14 Version 9 
(5).docx, June 20, 2014 (emphasis added) [USDA-CENSUS-0015310].


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    On August 4, 2014, the NASS staff member who liaises with OMB sent 
an e-mail to other NASS staff informing them that the TOTAL survey, 
landlord and operator versions were granted mandatory status by OMB. He 
directed his colleagues to include the appropriate language to reflect 
the mandatory status in all public relations materials.\65\ The fact 
that ERS was a partner in funding and planning the TOTAL survey, 
however, remained concealed from the public.
---------------------------------------------------------------------------
    \65\ E-mail from NASS Staff to NASS Staff, TOTAL/ARMS Question, 
Aug. 4, 2014 [USDA-CENSUS-0018429].
---------------------------------------------------------------------------
NASS Concealed ERS' Cooperation on the TOTAL Survey
    Administrator Reilly, according to NASS staff e-mails, ``did not 
think it is appropriate for us [NASS] to conduct a Census for another 
agency,'' \66\ in this case, ERS. The e-mail below shows that as a 
result of Reilly's views, NASS staff did not insert references to ERS 
in the publicity materials for the TOTAL survey. News releases and all 
other promotional materials related to the TOTAL survey did not contain 
the ERS logo or make mention of the fact that ERS was a partner in 
TOTAL. Following is an e-mail showing the rationale for excluding 
references to ERS.
---------------------------------------------------------------------------
    \66\ E-mail from NASS Staff to NASS Staff, Re: ARMS III news 
release, Dec. 18, 2014 [USDA-CENSUS-0039961].


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Internally, NASS staff appears to have disagreed with the approach 
taken in referring to TOTAL as a Census of Agriculture follow-on. In 
the instance below, a NASS staff member pointed out: ``the Census [was 
not used at all] to sample.'' The tone of the e-mail indicates contempt 
for the approach to TOTAL, and shows that the manner in which it was 
conducted was novel. Staff appears not to approve of leadership's 
decision with regard to the TOTAL survey. In particular, the staff 
member cited below stated: ``People are horribly picky about this whole 
TOTAL thing.''



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The record before the Committee demonstrates that USDA's NASS 
mandated a burdensome survey--ARMS III cloaked in the TOTAL title--a 
survey previously optional for producers. Their motives for this are 
unclear, but when questioned about it by OMB rather than seek counsel 
from USDA's OGC, NASS relied on Reilly's word. Since USDA has declined 
to fully cooperate with the Committee's oversight of TOTAL, gaps remain 
in the record. The following section focuses on what we do know--the 
findings, as well as the unanswered questions.
III. Findings and Unanswered Questions
  b The TOTAL Survey is over-broad, duplicative, and burdensome.

  b The documents produced to the Committee showing numerous producer 
        complaints related to TOTAL coupled with the feedback received 
        by the Committee from producers indicates that the TOTAL survey 
        simply goes too far.

  b OMB advised NASS that the TOTAL survey could not be mandated under 
        the Census of Agriculture authority and instructed NASS to seek 
        guidance from the USDA Office of General Counsel.

  b NASS failed to consult the USDA Office of General Counsel as 
        advised by OMB before mandating the TOTAL Survey.

    Despite a request from Chairman Conaway to interview pertinent NASS 
staff, those requests were denied by the Office of Congressional 
Relations.\67\ As a result, the Committee needs answers to the 
following outstanding questions:
---------------------------------------------------------------------------
    \67\ Letter from Hon. Todd Batta, Assistant Sec'y, Office of Cong. 
Affairs, U.S. Dep't of Agric. to Hon. K. Michael Conaway, Chairman, H. 
Agric. Comm., Sept. 28, 2015.

  <bullet> When and why did USDA and/or NASS decide to conduct the 
---------------------------------------------------------------------------
        TOTAL survey using the mandatory authority of the Census?

  <bullet> Who at the department-level was involved in the decision to 
        mandate TOTAL as well as the planning and execution of the 
        TOTAL survey?

  <bullet> When was the decision made to add ARMS III to the land 
        tenure survey recommended by the Advisory Committee on 
        Agriculture Statistics?

  <bullet> Who influenced the decision to integrate ARMS III and AELOS 
        to produce the TOTAL survey?

  <bullet> Who at USDA was involved in orchestrating the TOTAL survey 
        and its execution plan?

  <bullet> What was the rationale for mandating the TOTAL survey?

  <bullet> Who, if anyone, was directing Administrator Reilly with 
        regard to the TOTAL survey?

  <bullet> Why did NASS staff choose not to consult USDA's OGC when OMB 
        advised that they do so?

  <bullet> Whether Congress and more specifically, the Appropriations 
        Committee is aware that NASS uses funds from other USDA 
        agencies to conduct Census follow-on surveys?

    Today, many questions linger. Either USDA failed to produce 
documents and communications far enough back in time to answer these 
questions, or the directions were verbal. Without having the 
opportunity to question appropriate witnesses and USDA officials, the 
Committee's oversight efforts are impaired. This also shields facts 
from Congress and American agricultural producers.
IV. Conclusion
    This report is the result of Congress and, in particular, the House 
Agriculture Committee listening to its constituents. Farmers, ranchers, 
producers, and other operators contacted the Committee to raise 
concerns about what they viewed as an intrusive, burdensome, overreach 
of executive power. They had seen this survey before--it was the ARMS 
III survey. This time it was different. This time the USDA exercised 
its Census authority to mandate each farmer and rancher's 
participation. The fact that farmers and ranchers failing to fill out 
the 24 page operator version would be subjected to a monetary penalty 
was a tough pill to swallow. It was novel approach. This oversight 
initiative revealed that there were anomalies in the process.
    USDA and NASS' motivation for renaming ARMS III as TOTAL is 
unclear. If they were hoping to deceive farmers, their plan failed. 
They were not deceived and they did not stay silent on the matter. 
Instead, farmers and ranchers were angry that the government would 
require them to report how much their household spent on health care, 
dental care, and the values of their homes, vehicles, and retirement 
accounts.
    USDA, when crafting the TOTAL survey, failed to take into 
consideration the privacy of America's farmers, ranchers, and 
landowners. OMB advised NASS that their interpretation of the Census of 
Agriculture statue did not allow for mandating the TOTAL survey, which 
is essentially the ARMS III survey. NASS was unwilling to accept this 
answer. Repeatedly, NASS communicated to OMB that it was within the 
Secretary's discretion to mandate TOTAL. At the end of the day, OMB 
accepted this on face value and allowed NASS to resubmit the Federal 
Register notices indicating the mandatory status of the survey. NASS 
took all of these actions without once asking the advice of USDA's 
Office of General Counsel.
    The Committee is deeply concerned with regard to the TOTAL survey, 
that USDA and NASS exceeded their authority under the Census of 
Agriculture. The Secretary, in this case, abused his discretion. This 
oversight initiative has borne out the fact that anomalies occurred in 
the process of mandating TOTAL. As a result of the findings above, 
Committee staff recommends that Members of the Agriculture Committee 
review the attached surveys and the findings herein to determine 
whether it is appropriate to narrow the statutory language in 7 U.S.C. 
 2204g.
V. Options for Legislation Related to the Census
    Following are some legislative options for Members and their staffs 
to consider:

  1.  Statutorily limit the number of questions in Census surveys to 
            reduce the time burden on survey recipients.

  2.  Amend the statute to make clear that Census follow-on survey may 
            not mandate responses.

  3.  Requests of other agencies regarding content of any survey must 
            be first subject to notice and comment, and detailed 
            explanation of any question (purpose, how the data will be 
            utilized, etcetera) must be provided well in advance.
VI. Timeline of the Committee's Oversight of TOTAL and the Census
  <bullet> On February 5, 2015, USDA and NASS staff briefed Committee 
        staff. There were numerous unanswered questions flowing from 
        this briefing.

  <bullet> February 10, 2015, at the request of numerous producers, the 
        Chairman and Ranking Member sent a letter to Secretary Vilsack 
        requesting information and documents related to the Census of 
        Agriculture and surveys conducted pursuant to that authority. 
        The documents were due February 26, 2015.

  <bullet> On February 26, 2015, Committee staff followed up with USDA 
        staff to inquire about the status of the production.

  <bullet> On March 16, 2015, USDA staff sent an e-mail containing a 
        letter from Under Secretary Todd Batta, signed March 13, 2015. 
        This letter answered the questions posed in the Chairman and 
        Ranking Member's letter. No documents were provided.

  <bullet> On March 18, 2015, Committee staff sent an e-mail to USDA 
        staff narrowing the scope of and prioritizing the documents in 
        the request.

  <bullet> On March 23, 2015, USDA staff communicated to Committee 
        staff that they would provide primarily publicly available 
        documents to the Committee at the briefing on March 27, 2015.

  <bullet> On March 27, 2015, USDA staff provided a briefing to 
        Committee staff and produced a disk containing publicly 
        available documents related to the Census of Agriculture.

  <bullet> On April 7, 2015, USDA staff communicated that USDA was 
        reviewing 56,000 documents that were potentially related to the 
        Census of Agriculture request and that the Committee would 
        receive relevant documents between April 10 and April 14, 2015.

  <bullet> USDA produced documents to the Committee on April 17, 24, 
        and June 8, 12, 26, and July 20, 2015. In total, USDA produced 
        49,000 documents.

  <bullet> On September 9, 2015, the Chairman sent letter to Secretary 
        Vilsack requesting transcribed interviews of two NASS employees 
        with factual knowledge of the planning of execution of the 
        TOTAL survey.

  <bullet> On September 28, 2015, Under Secretary Todd Batta wrote 
        Chairman Conaway offering another briefing, and thereby 
        declining to produce witnesses for a transcribed interview.
                             [attachment 1]
1999 Agricultural Economics and Land Ownership Survey Operator's Report


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             [attachment 2]
Agricultural Resource Management Survey Costs and Returns Report 2013



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
Submitted Form by Hon. Rodney Davis, a Representative in Congress from 
                                Illinois
  2014 tenure, ownership, and transition of agricultural land (total)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Submitted Memorandum by Hon. Suzan K. DelBene, a Representative in 
                        Congress from Washington
USDA-CENSUS-0003500
USDA United States Department of Agriculture
National Agricultural Statistics Service
Tenure, Ownership, and Transition of Agricultural Land (TOTAL) Survey
March 19, 2014--DRAFT
Background
    The TOTAL Survey has been funded $4.5 million ($2.0 million from 
ERS in FY14 and $2.5 million in NASS' FY15 Census budget). Unlike the 
Agricultural Economics and Land Ownership Survey (AELOS) conducted for 
1999, we are decoupling the request for names and addresses from the 
operators and expanding the scope of the Agricultural Resources 
Management Survey (ARMS), Phase III to collect data from the owners/
operators. We are building a frame of landlords only from the June Area 
Frame (2014, rotated out segments from 2013, and rotated out segments 
from 2012) matched against administrative sources. The two 
administrative sources will be tax records purchased from CoreLogic and 
owners identified to Farm Services Agency (FSA). When those two sources 
do not provide information, NASS will utilize NASDA staff to visit the 
county tax assessor office to identify the land owners. Data from the 
landlords only will be collected on a questionnaire separate from the 
ARMS Phase Ill but during the same data collection window. It is a 
requirement that data be turned over to ERS no later than the end of 
July 2015 so products can be developed and shared with USDA by the end 
of September 2015.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                                  Issue
 
    NASS and ERS both desire to use the mandatory authority of the
 Census of Agriculture to increase response rates. The current ARMS
 docket will be suspended and a new docket submitted so we can carry the
 mandatory reporting statement on the questionnaires.
------------------------------------------------------------------------

    One issue is the access to ARMS records by sworn data users via the 
ERS data lab and through the data enclave. NASS has prohibited access 
to Census of Agriculture data and without approval, this combined 
effort under the Census authority would limit record level access. 
Should ERS and the data enclave be given access to the data file?
    A second issue is the NASS publication. Due to the narrow window of 
time between clean data file and data dissemination, should NASS agree 
to data dissemination via only on-line methods?
    In regards to the publication, should NASS utilize the new ERS farm 
typology definitions? The revised farm typology is summarized on page 2 
and page 3. Note that the categories size breaks are different and that 
they use gross cash farm income instead of gross farm sales.
Proposal *
---------------------------------------------------------------------------
    * Editor's note: this is an excerpt of the Memorandum.
---------------------------------------------------------------------------
      
                                 ______
                                 
   Submitted Article by Hon. Collin C. Peterson, a Representative in 
                        Congress from Minnesota
Scrooged by the survey: Farmers miss out on ARC payments

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            Video hyperlink: https://content.jwplatform.com/videos/
        zXmgQ62z-hWqsCqCS.mp4.

By Mikkel Pates/Agweek on Dec. 7, 2015 at 9:34 a.m.

    JUD, N.D.--Jeremy Nitschke says he fills out a lot of Federal 
agricultural surveys and responds to government surveys, but says a 
National Agricultural Statistics Survey that failed in his county 
shouldn't have cost him $30,000.
    At age 38, Nitschke is a farming partner with his younger brother, 
Nathan. The two farm in both Logan and LaMoure counties in North 
Dakota. They work in a loose association with an older Nitschke 
partnership that includes their father, Jon Nitschke, and their uncle, 
Jeff Nitschke.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Jeremy Nitschke (right) and his uncle, Jeff Nitschke, are 
        partners in separate family farming ventures. They farm 
        primarily in North Dakota's LaMoure and Logan counties--the 
        only two counties in North Dakota that are not eligible for 
        corn payments in the Agriculture Risk Coverage-County program 
        for the 2014 crop year. (Mikkel Pates/Agweek).
        
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          LaMoure and Logan counties were the only counties in North 
        Dakota that didn't get payments for corn in the Agriculture 
        Risk Coverage-County program for the 2014 crop year. Farmers 
        had budgeted $20 to $67 per acre but got nothing, largely 
        because they didn't fill out a voluntary yield survey. (Mikkel 
        Pates/Agweek).
        
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Farmers in North Dakota's LaMoure and Logan counties, 
        including the Nitschke families who farm in Jud, N.D., didn't 
        get the expected payments from the Agriculture Risk Coverage-
        County program for the 2014 crop year. (Mikkel Pates/Agweek).

    When only one out of five farmers who received NASS corn yield 
returned those surveys last fall, it affected whether farmers in the 
two counties would get a payment in the Agriculture Risk Coverage-
County, also called ARC-CO.
    Jeremy and Nathan's partnership is typical and easy to calculate. 
The younger partners together have 1,000 acres of corn base on their 
FSA farm. With help from their loan officer, they calculated that, 
depending on yield, they might expect a net ACR-CO ranging from $20 to 
$67 per acre, or roughly $20,000 to $67,000.
    Instead, they got nothing. Jeremy says he might have made different 
program decisions if he'd known how ARC-CO could go wrong.
    ``How can you take $30,000 away just because people didn't fill out 
a survey?'' he says.
How could it be?
    The Federal Agricultural Act of 2014, signed into law Feb. 7, 2014, 
is administered by the U.S. Department of Agriculture's Farm Service 
Agency. Corn farmers who wanted to participate were offered a choice of 
two FSA farm programs on a farm-by-farm basis--the Price Loss Coverage 
program or the Agriculture Risk Coverage-County program.
    The PLC program has a reference price of $3.70 per bushel. Corn 
farmers would need to see the 2014 marketing year average fall below 
that to get a PLC payment.
    Few predicted prices would fall below that level.
    The final 2014 marketing year average national price came in right 
at $3.70 per bushel, so farmers did not receive a PLC payment on corn.
    Most corn farmers chose ARC-CO, which allows participants to 
receive revenue coverage when the current year revenue falls below a 
guarantee.
    Under ARC-CO, the benchmark price for corn is $5.29 per bushel. 
Software programs largely predicted that if farmers received normal 
yields and decreased prices the next 2 or 3 years, they'd likely get a 
payment in ARC-CO.
    In North Dakota, farmers typically relied on spreadsheets provided 
by North Dakota State University Extension Service. NDSU farm 
management specialists estimated 140 to 150 bushel per acre yields for 
LaMoure County and 90 to 100 bushel per acre yields for Logan County.
    Farmers wanting to participate in ARC-CO for the 2014 crop year had 
until April 7 to make program elections. By Sept. 30, they had to sign 
up a second time, to enroll into a contract. The same deadline was used 
for both the 2014 and 2015 crop contract.
Olympic Averages
    ARC-CO guarantees were based on 5 years of county average yields 
and marketing year average prices--2009 to 2013.
    The benchmark revenue figure to determine whether payment should be 
made is the combination of yield and price--the Olympic average yield 
for those years multiplied by the Olympic average price for the same 
years.
    The ARC-CO payment guarantee was based on 86 percent of benchmark 
revenue, calculated with a formula based on Federal budgetary limits. 
It is further reduced by a factor of 0.932 (another seven percent 
reduction) for Congressional sequestration, another budget cut passed 
in 2011.
    In educating farmers about their options, the FSA and Extension 
Service routinely noted payments would be made on county yields 
generated by a hierarchy of sources: National Agricultural Statistics 
Service county yield surveys, if available; FSA data-mined yields from 
the Risk Management Agency, or crop insurance; crop reporting district; 
and a yield set by the FSA state committee, using neighboring counties 
with similar production.
    Everybody heard how it worked, but no one imagined the first option 
wouldn't be available because of a NASS survey. No one expected the 
second option would have such a negative impact.
Survey Failure
    Darin Jantzi, NASS state statistician in Fargo, says there are 
roughly 282 corn producers in LaMoure County, according to the 2012 
Census of Agriculture.
    Yield surveys for the 2014 crop year were sent to 125 county 
producers in mid-October 2014. NASS waited for mailed responses for 3 
weeks. NASS surveyors then attempted to phone recipients, giving up 
only if the farmer refused, or at the end of the survey period.
    Only 27 of the surveys came back--three shy of the 30 producer 
minimum required. Further, the responses represented only 9.5 percent 
of the production acres in the county--far short of the 25 percent 
needed for a valid NASS yield.
    The next option was the RMA figure, which was 165 bushels per acre.
    Jeremy wasn't aware this was a problem until October.
    He got word from AgCountry Farm Credit Services officials in 
Jamestown. It sunk in when he wanted to pay a farm loan bill with his 
ARC-CO payment, and a clerk in the office said it would be impossible.
    ``She said I got paid on 270 acres of wheat,'' he says. ``Nothing 
on the corn.''
    Jeremy's uncle, Jeff, 59, thinks he failed to fill out the survey. 
But he also says if it were critical to paying farmers what they're 
owed, NASS should have done something to redo the surveys ``if it was 
this important for our payments.''
RMA, FSA Differ
    Dale Ihry is a former FSA state specialist in Fargo and part of the 
ARC-CO farm bill team. He left that post in October to take a job as 
executive director of the North Dakota Corn Utilization Council. Ihry 
says FSA and RMA matches best in years when almost everyone in a county 
reports losses and RMA adjusts them.
    In years of no loss, RMA corn yields often run roughly 10 bushels 
per acre higher than the NASS yield.
    Ihry says the most reliable yield average for administering ARC-CO 
is the NASS County average yield. The FSA found that for corn counties 
in North Dakota, RMA yields would run roughly 10 bushels per acre 
higher than the county NASS yield. Yields certified to RMA during non-
loss years might not reflect moisture content, test weight or damage.
    Aaron Krauter, North Dakota FSA state executive director, says he 
can vividly remember telling farmers about the NASS survey basis for 
ARC-CO, and the ``seed corn caps going up and down.''
    He says farmers need to understand the surveys are more important 
today. Farm programs have become more of a safety net and aren't simply 
direct payments.
    ``The reality is that farmers say they just throw these in the 
basket,'' Krauter says. ``I tell them, you can't.''
    Farmers right now are in the middle of filling out surveys for the 
2015 crops.
    In October, the FSA state committee requested the FSA in 
Washington, D.C., allow them to skip the RMA yield step for Logan and 
LaMoure counties, because it is ``obvious the yield is an outlier.''
    The national officials declined.
    Krauter says the 165 bushel per acre yield for LaMoure County is a 
record yield for any county in the state. The FSA state committee 
requested to use NASS yields for counties with similar productivity.
    Corn council and grower association boards have asked for the 
situation to be revisited. Krauter says he will keep asking Washington 
to ``consider the anomaly'' and allow the state committee to make a 
``reasonable yield decision.''
    Sen. John Hoeven, R-N.D., has requested that FSA Administrator Val 
Dolcini revisit the issue and consider making things right in LaMoure, 
Logan and other counties with similar situations, such as Ransom and 
Steele.
County Rules
    Some counties in southeast North Dakota received $40 to $60 per 
acre payments on their corn base acres.
    ``A lot of corn producers in LaMoure and Logan counties think that 
is what they should be getting,'' Ihry says.
    Most realize LaMoure County was unlikely to have gotten a payment 
that high. He says if the state committee had been allowed to adjust 
the yields properly, LaMoure County would have received about $30 per 
base acre on their corn.
    But Ihry says it makes no sense that LaMoure County--a 
predominantly non-irrigated county--could exceed the state's record 
average corn yield by 10 bushels an acre. Next door, Dickey County, 
which completed its NASS surveys, had a yield of 150--a difference of 
15 bushels per acre.
    ``How, statistically, would that ever happen?'' Ihry asks.
    The FSA did change the rules for farmers in multiple counties. 
Farmers like Jeremy who declare LaMoure County their ``control'' county 
for FSA payments, can be paid for acres they farm in nearby counties, 
such as Stutsman County.
    About 90 percent of the Nitschkes' land is in LaMoure County, 
within 5 miles of the Stutsman County border.
    Meanwhile, some farmers who live in LaMoure County, but declare 
Stutsman County as their control county, receive the Stutsman County 
payment rate, before budget-reduction factors, of $61.36 per acre, even 
for land they farm in LaMoure County.
    Jeremy doesn't indicate his operation is jeopardized by the ARC-CO 
snafu, but it did hurt.
    He came back to the farm in 2004 and holds an associate's degree in 
agricultural finance from North Dakota State College of Science in 
Wahpeton. He is the Chairman of the CHS-Dakota Prairie Ag elevator 
board in Edgeley, N.D., and is concerned about the dozens of farmers 
have been hit with the problem.
    ``It's a lot of money,'' Jeremy says, estimating it is a multi-
million-dollar difference from what was anticipated. ``It's going to 
make a huge impact in LaMoure County.''

                                  [all]
</pre></body></html>
